<html>
<title> - EXPLORING MARS AND BEYOND: WHAT'S NEXT FOR U.S. PLANETARY SCIENCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   EXPLORING MARS AND BEYOND: WHAT'S 
                    NEXT FOR U.S. PLANETARY SCIENCE 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, NOVEMBER 15, 2011

                               __________

                           Serial No. 112-51

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

71-181 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          GABRIELLE GIFFORDS, Arizona
    Wisconsin                        MARCIA L. FUDGE, Ohio
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
DANA ROHRABACHER, California         TERRI A. SEWELL, Alabama
FRANK D. LUCAS, Oklahoma             DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas                 
SANDY ADAMS, Florida                     
E. SCOTT RIGELL, Virginia                
MO BROOKS, Alabama                   EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas



                            C O N T E N T S

                       Tuesday, November 15, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    13

Statement by Donna Edwards, Subcommittee on Space and 
  Aeronautics, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    14
    Written Statement............................................    16

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    17
    Written Statement............................................    17

                               Witnesses:

Dr. Jim Green, Planetary Science Division Director, Science 
  Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    18
    Written Statement............................................    20

Dr. Steve Squyres, Chair, Committee on the Planetary Science 
  Decadal Survey, National Academies of Science
    Oral Statement...............................................    23
    Written Statement............................................    25

Discussion
  ...............................................................    27

  ...............................................................      

             Appendix I: Answers to Post-Hearing Questions

Dr. Jim Green, Planetary Science Division Director, Science 
  Mission Directorate, National Aeronautics and Space 
  Administration.................................................    42

Dr. Steve Squyres, Chair, Committee on the Planetary Science 
  Decadal Survey, National Academies of Science..................    51

            Appendix II: Additional Material for the Record

Submitted Statement for the Record by The Planetary Society......    56

Submitted Statement for the Record by Dr. Mark Sykes, CEO and 
  Director of The Planetary Science Institute....................    62


                   EXPLORING MARS AND BEYOND: WHAT'S
                    NEXT FOR U.S. PLANETARY SCIENCE

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2011

                  House of Representatives,
                      Subcommittee on Space and Aeronautics
               Committee on Science, Space, and Technology,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                       Exploring Mars and Beyond:

                What's Next for U.S. Planetary Science?

                       tuesday, november, 15 2011
                            10 a.m.-12 p.m.
                   2318 rayburn house office building

Introduction

    On November 25, 2011, NASA will launch the Mars Science Laboratory 
(MSL). MSL will land a rover--roughly the size of a Mini-Cooper 
automobile--on the surface of Mars to conduct a variety of experiments 
that will deepen our understanding of the history of the geological, 
atmospheric and chemical composition of Mars and inform future 
missions, including human expeditions. Yet, even as MSL begins its 
journey to Mars, the follow-on missions in 2016 and 2018--planned 
jointly with the European Space Agency (ESA)--have been scaled back 
significantly and could be on the brink of cancellation altogether. 
Until the Administration delivers its fiscal year 2013 budget request 
to Congress, NASA is left without definitive answers for our European 
partners. This uncertainty has left ESA to explore alternative 
opportunities--perhaps with Russia--or to cancel part of the mission 
themselves.
    The uncertainty surrounding the Mars program highlights a larger 
issue of the future of U.S. flagship planetary missions. The most 
recent planetary decadal survey, Visions and Voyages for Planetary 
Science in the Decade 2013-2022 lays out a robust program for planetary 
exploration that includes several top-priority flagship missions--
including a Mars sample return mission and a mission to Jupiter's moon 
Europa. The recommended program does not anticipate that all flagship 
missions would be pursued. Instead, relative priorities are assigned to 
assist NASA in making its final programmatic decisions that often 
include other factors such as technology readiness and budgetary 
constraints. The report acknowledges this process by emphasizing the 
necessity for the U.S. to scale these flagship missions appropriately 
to the anticipated funding in the near term, recommending a significant 
de-scoping of these missions to achieve the science objectives less 
expensively.
    The purpose of this hearing will be to receive testimony from NASA 
and the National Academies of Science on the prospects for future 
exploration of Mars and implications of the current fiscal crisis to 
the future of U.S. planetary science. The Office of Management and 
Budget was invited to testify but chose not to participate.

Witnesses

    <bullet>  Dr. Jim Green, Planetary Science Division Director, 
Science Mission Directorate, National Aeronautics and Space 
Administration

    <bullet>  Dr. Steve Squyres, Chair, Committee on the Planetary 
Science Decadal Survey, National Academies of Science

Overarching Questions

    <bullet>  What is the current status of the U.S. Mars exploration 
program? How does Mars Science Laboratory fit into the larger Mars 
exploration strategy?

    <bullet>  How does NASA's decision to no longer provide the launch 
vehicle for the 2016 joint NASA/ESA Mars mission and possibly further 
de-scope participation in the 2018 mission impact NASA's Mars 
Exploration Program as well as prospects for future international 
collaboration?

    <bullet>  What is the future prospect for a U.S.-led Mars Sample 
Return mission, as identified by the most recent National Academies 
planetary decadal survey as the top priority for planetary science in 
the coming decade?

    <bullet>  What are NASA's long-term plans for flagship planetary 
missions? Does the Jupiter Europa Orbiter (JEO) mission have a 
reasonable chance of being funded?

Background

    Since Mariner 4 sent back the first-ever images of Mars in 1965, 
the American public and indeed the world have been amazed by what we 
learn about the solar system we live in. The legacy of our spacecraft 
is rich. In the 1970s, Pioneer 10 & 11 sent never-before-seen pictures 
of Jupiter and Saturn. Pioneer 10 measured Jupiter's intense radiation 
belts, located the planet's magnetic field, and discovered that Jupiter 
is predominantly a liquid planet. After passing by Jupiter, Pioneer 10 
continued towards the outer regions of the solar system making valuable 
scientific investigations until 1997. Pioneer 11 provided valuable data 
about Saturn, cosmic rays and the solar wind up until 1995. Today, 
Messenger (MErcury Surface Space ENviroment and Ranging) provides us 
with the closest ever view of Mercury and it is providing details about 
the planet's gravity field, mineralology, and atmospheric composition. 
Juno is en route to study Jupiter in greater detail and GRAIL will 
provide us with a gravitational map of the moon.
    But for all of the discoveries to date, there is still so little we 
know about our solar system and our neighboring planets. NASA's 
Planetary Science Division within the Science Mission Directorate 
builds on previous missions to advance our understanding of the solar 
systems through progressively more sophisticated missions to planets, 
moons, comets and asteroids. Its mission is to "advance scientific 
knowledge of the origin and history of the solar system, the potential 
for life elsewhere, and the hazards and resources present as humans 
explore space." Guided by the National Academies of Science decadal 
survey process, NASA develops a planetary exploration strategy that 
aims to balance lower-cost, lower-risk missions with higher-cost, 
greater-risk flagship missions based on the sequence of "flyby, orbit, 
land, rove, and return samples" for each potential destination.

Planetary Decadal Survey Recommendations

    The most recent decadal survey, Visions and Voyages for Planetary 
Science in the Decade 2013-2022 was issued in March 2011. Requested by 
NASA, and managed and written by the National Academy of Sciences, the 
report develops a comprehensive strategy for U.S. planetary science in 
the coming decade. Per the report, the recommended program ``will 
achieve long-standing scientific goals with a suite of new missions 
across the solar system. It will provide fundamental new scientific 
knowledge, engage a broad segment of the planetary science community, 
and have wide appeal for the general public whose support enables the 
program.''
    The decadal report committee utilized four main criteria to measure 
proposed missions as a means of selecting and prioritizing future 
missions. First and foremost was the ability to provide high science 
return per dollar. Programmatic balance across mission targets 
throughout the solar system as well as the appropriate mix of small, 
medium and large missions was the second criteria. The other two 
criteria were technological readiness and the availability of 
trajectory opportunities within the timeframe discussed.

Flagship Missions

    The report concludes that the top-priority large flagship mission 
for the coming decade would be to establish a three-mission Mars Sample 
Return campaign - one that would not be completed into the decade 
beyond 2022. That would require completion of the Mars Astrobiology 
Explorer-Cacher (MAX-C), currently planned as a joint mission with the 
European Space Agency in 2018.
    The ability to afford such a mission, however, was called into 
question by the report. As of the report's release in March 2011, the 
MAX-C mission was expected to cost NASA $3.5 billion (in FY2015 
dollars) in large part because of an envisioned delivery of two large 
rovers using a single entry, descent, and landing (EDL) system derived 
from the Mars Science Laboratory (MSL) EDL system. Such large rovers 
would require major redesign of the MSL EDL system. The report 
recommends that NASA pursue a de-scoped mission not to exceed $2.5 
billion in order to main program balance (as identified above as part 
of the selection criteria). As detailed in the Mars Exploration Program 
description below, NASA has in fact de-scoped the mission and is 
currently in negotiations with ESA on what the scaled-down mission 
might look like. Per the report's recommendations, international 
collaboration is an essential element to affordability and therefore 
feasibility of such a mission.
    Absent a significant de-scope and an appropriate partnership 
agreement with ESA for a future mission to return collected samples, 
the report recommends any such Mars collaboration be abandoned for the 
second priority mission, the Jupiter Europa Orbiter (JEO). Again, 
however, serious reservations about the cost of the mission came into 
play. As currently designed, the JEO mission would cost $4.7 billion 
(in FY2015 dollars), which results in an unacceptable programmatic 
imbalance by crowding out funding for other planetary missions. The 
report states:

        While the committee recommends JEO as the second highest 
priority Flagship mission, close behind MAX-C, it should fly in the 
decade of 2013-2022 only if changes to both the mission and the NASA 
planetary budget make it affordable without eliminating any other 
recommended missions. These changes are likely to involve both a 
reduction in mission scope and a formal budgetary new start for JEO 
that is accompanied by an increase in the NASA planetary budget. NASA 
should immediately undertake an effort to find major cost reductions 
for JEO, with the goal of minimizing the size of the budget increase 
necessary to enable the mission.

Priorities for Small and Medium Missions

    The report does not make specific recommendations on the small 
Discovery program missions. It does register its continued support for 
these missions as a valuable asset to the overall program and 
recommends that it continue at its current level capped at $500 million 
(FY2015) and a cadence of 24 months for selections.
    Medium missions, known as New Frontiers, are capped at $1 billion 
(FY2015) per mission (excluding launch vehicle costs) with a goal of 
selecting two such missions in the decade. The report identifies five 
candidate missions and two alternates for which NASA should select 
based on competitive peer review. Candidate missions include Comet 
Surface Sample Return, Lunar South Pole-Aitken Basin Sample Return, 
Saturn Probe, Trojan Tour and Rendezvous and Venus In Situ Explorer. 
The alternates would be Io Observer and Lunar Geophysical Network.

Launch Vehicle Costs

    The cost of launch services is another challenge to NASA's 
planetary exploration program. As noted above, the New Frontier 
missions were capped without including the costs of launch vehicles. 
This is a departure from previous decadal survey recommendations that 
absorbed launch costs into total program costs. The decadal survey 
committee noted the increasing costs of launch vehicles and was 
concerned with those costs taking a larger share of the overall program 
costs.
    Further exacerbating the launch issue is the planned retirement of 
the Delta II launch vehicle. The Delta II has been a staple for 
planetary missions; however, the Air Force terminated its long-standing 
contract for Delta II's citing budgetary constraints. This decision 
impacts NASA's ability to use the rocket for future scientific 
payloads, since it would have to absorb all of the Delta II 
infrastructure and processing costs which had been paid for by the Air 
Force. Since the decadal survey was released, NASA modified its NASA 
Launch Services II contract with United Launch Services to enable up to 
five additional Delta II rockets per the contract's on-ramp provision. 
But even with the additional rockets, uncertainty remains. As the 
report states:
        The absence of the Delta II will shortly leave a gap in 
reliable, relatively inexpensive launch capabilities important for 
missions to the inner planets and some primitive bodies. . . As noted 
many past missions have relied on the Delta II, and future missions 
will not have this option. The concern is that alternative launch 
vehicles of established reliability, such as the Atlas V and the Delta 
IV, are substantially more expensive even in their smallest versions. 
The situation is complicated further by the volatility of the costs of 
these vehicles, and dependence of costs on future contract 
negotiations. Increases in launch costs pose a threat to formulating an 
effective, balanced planetary exploration program. 

Need for Plutonium-238

    Another area of concern is the availability of Plutonium-238 for 
future missions. Radioisotope Power Systems (RPSs) utilize heat 
converted from the nuclear decay of radioactive isotopes to generate 
electricity. RPSs are frequently used to power spacecraft that travel 
large distances and in extreme environments. Their ability to operate 
continuously regardless of their orientation or distance from the Sun 
make them particularly advantageous. Since 1961, 28 U.S. space missions 
have safely flown using radioisotope energy sources.
    The United States ended production of plutonium-238, the key 
nuclear component of RPSs in 1988. Separation of the isotope from 
existing inventories stopped in 1996 leaving the remaining stock of 
plutonium-238 to be purchased from Russia. Despite no new production, 
its use continues. Most recently, the Mars Science Laboratory used 
about 3.5 kg for the Multi Mission Radioisotope Thermoelectric 
Generator (MMRTG) and the next Discovery mission has reserved 1.8 kg 
for two Advanced Stirling Radioisotope Generators (ASRGs).
    The decadal survey indicates that in order to complete the 
recommended program new plutonium-238 production is essential or more 
deliveries from Russia will be necessary. It concluded:

        The Committee is alarmed at the status of plutonium-238 
availability for planetary exploration. Without a restart of plutonium-
238 production, it will be impossible for the United States, or any 
other country, to conduct certain important types of planetary missions 
after this decade. 

    The fiscal year 2012 president's budget requested $10 million each 
for NASA and the Department of Energy to enable the U.S. to produce 
plutonium-238. The House Appropriations Subcommittee on Commerce, 
Justice, Science and Related Agencies approved the request for NASA in 
their bill reported out of the full committee on July 7, 2011. 
Specifically, the bill report states:

        Plutonium-238.-The bill makes available $10,000,000 from this 
account, as requested, to restart production of Plutonium-238 (Pu-238), 
a radioisotope that is an essential source of electrical power for 
long-range planetary science missions. The Committee urges NASA to work 
expeditiously with the Department of Energy to bring Pu-238 production 
back online as quickly as possible while simultaneously pursuing 
Advanced Stirling Radioisotope Generator technology that will allow 
NASA to make better, more efficient use of available Pu-238 stocks.

    However, the House Appropriations Subcommittee for Energy and Water 
denied funding for DOE, citing it as a NASA requirement that should be 
funded solely by NASA. Specifically, their bill states:

        Plutonium-238 Production Restart Project.-The National 
Aeronautics and Space Administration (NASA) uses the vast majority of 
plutonium-238 (Pu-238) produced or procured by the federal government. 
The Committee remains concerned that the Administration continues to 
request equal funding from NASA and the Department of Energy for a 
project that primarily benefits NASA. The Committee provides no funds 
for this project, and encourages the Administration to devise a plan 
for this project that more closely aligns the costs paid by federal 
agencies with the benefits they receive.

    Likewise, the Senate Appropriations Committee recommended similar 
action--the subcommittee responsible for NASA provided funding for the 
project, while the subcommittee responsible for DOE withheld funding.

Current Mars Exploration Program

    Scientific discovery of the Red Planet continues thanks to a steady 
cadence of missions that have built on the sequence strategy of "flyby, 
orbit, land, rove and return samples."
    There are several missions currently operating on Mars, all of 
which are well past their designed mission lifetime.
    Mars Odyssey is the longest running spacecraft ever in orbit around 
another planet. Launched in 2001, the Mars Odyssey quickly discovered 
evidence of large amounts of water ice just below the surface. Since 
then, Odyssey has given scientists the opportunity to monitor seasonal 
changes of the Martian atmosphere and compile lengthy year-to-year 
comparisons of Martian weather. Odyssey now also serves as a relay 
service for the Mars Exploration Rovers and is in a prime position to 
serve as a communications relay for the landing of the Mars Science 
Laboratory.
    The Mars Exploration Rovers (MER)--better known as Spirit and 
Opportunity--have captured the imaginations of the young and old 
through their ongoing trek across the Martian terrain sending both 
pictures and valuable information about the history of water on Mars. 
The rovers were originally slated for a 3-month mission in early 2004. 
Opportunity continues to send back information to scientists and Spirit 
only stopped working in 2010.
    The Mars Reconnaissance Orbiter (MRO) is also providing a valuable 
look at the history of water on Mars. Launched in 2005, MRO provides 
images of the surface, mineral analysis, atmospheric measurements and 
daily weather monitoring. Additionally, MRO provides a critical data 
and communications link effectively serving as an "interplanetary 
Internet" enabling current and future Mars rovers a communications 
bridge back to Earth.

Mars Programs Currently in Development

    The Mars Science Laboratory (MSL) hopes to build on this foundation 
of knowledge by further examining the Martian environment. Set to 
launch on November 25, 2011, MSL--better known as Curiosity--will land 
in August 2012 utilizing a groundbreaking "sky crane" landing system. 
Once on the ground, the small car-sized rover will utilize a suite of 
scientific cameras and instruments with the objectives of:

    <bullet>  Assessing the biological potential of the site by 
investigating organic compounds, other relevant elements, and 
biomarkers

    <bullet>  Characterizing geology and geochemistry, including 
chemical, mineralogical, and isotopic composition, and geological 
processes

    <bullet>  Investigating the role of water, atmospheric evolution, 
and modern weather/climate

    <bullet>  Characterizing the spectrum of surface radiation

    The Mars Atmospheric and Volatile EvolutioN (MAVEN) mission is 
currently under development and scheduled to launch in late 2013. MAVEN 
was selected under NASA's Mars Scout program, which supports smaller, 
low-cost competed missions led by a principal investigator. MAVEN seeks 
to obtain measurements of the Martian atmosphere in order to gain a 
better understanding of the climate changes that have occurred over the 
planet's history.

Joint NASA-ESA Mars Missions

    The United States originally planned to partner with the European 
Space Agency on a joint two-phase mission that would build on the 
previous work of both U.S. and European exploration of Mars and lay the 
framework for an eventual sample return mission.
    The first mission, ExoMars Trace Gas Orbiter, is currently 
scheduled to launch in 2016. The mission includes an orbiter with 
several science instruments including the ability to monitor methane or 
other trace atmospheric gasses. It would also be a demonstration for 
Europe to test entry, descent and landing (EDL) capabilities to the 
surface. In addition to collaborating on the science instruments on the 
orbiter, NASA would launch the mission on an Atlas V rocket. In 
September 2011 NASA informed ESA that the U.S. would no longer be able 
to afford the rocket to launch the 2016 mission. ESA has subsequently 
solicited participation from the Russian Space Agency, Roscosmos, for 
the 2016 mission to include a possible launch on a Proton rocket. This 
solicitation has also opened up the possibility of Russian 
participation on the orbiter instruments.
    The second NASA-ESA ExoMars/MAX-C mission was to send in 2018 two 
rovers--one led by the U.S. and the other by Europe--to operate in 
separate but complementary missions. The rovers would be armed with a 
drill and a storage cache to collect suitable samples for a future 
return mission. The mission is planning to utilize the EDL technologies 
developed for MSL and also be launched by the U.S. on an Atlas V 
rocket.
    The current budget situation in the United States, however, has led 
NASA to reconsider its obligations to ESA under the currently signed 
agreement. In April 2011, NASA and ESA agreed to send only one rover 
that would combine the research and storage components of the 
previously separate rovers.
    A meeting between the two agency heads in October 2011 left even 
further questions about the future of both the 2016 and 2018 missions 
on the table. NASA was unable to make any commitments to ESA prior to 
the official fiscal year 2013 president's budget proposal due out in 
February 2012. Without a clear agreement with NASA, ESA is conducting 
its own analysis of alternatives.
    ESA continues to provide funding for the 2016 mission even as 
discussions open the up the possibility of combining the entire mission 
into one launched only in 2018. ESA has already secured approximately 
850 million of the needed 1 billion Euros needed to meet ESA's 
commitments for the two-launch mission from its member states. ESA has 
indicated that even if the mission were to be de-scoped to a single 
launch, it would still need about the same amount of money due to 
already obligated funds.

Budget Outlook

    The fiscal year 2012 budget request for NASA's Planetary Science 
Division is $1.54 billion.
    The House Appropriations Committee approved a FY12 budget for NASA 
on July 7, 2011. The final report did not provide a specific 
recommendation for planetary science funding, but reduces the overall 
Science Mission Directorate budget by $512,800,000 below the 
president's request (recommending $4,504,000,000, which is $431,409,000 
below fiscal year 2011). Report language provides specific language 
regarding flagship missions by saying:

    Planetary Science missions.-The Committee accepts the findings of 
the most recent Planetary Science decadal survey and supports the 
application of the survey's decision rules to determine how best to 
structure the program within the available budget. The program elements 
most significantly impacted by these decision rules are the flagship 
missions, which must be substantially descoped in order to remain 
within the portfolio. The Committee directs that $4,000,000 of the 
Outer Planets Flagship (OPF) budget be used to conduct the necessary 
descoping studies for the decadal survey's two highest priority 
flagship missions: Mars Sample Return (MSR) and the Jupiter Europa 
Orbiter (JEO). The results of these studies shall be transmitted to the 
Committee as soon as they are complete. The remaining $39,000,000 of 
OPF funds should be held pending the completion of the descoping 
analysis and, depending on the results, either used in support of an 
acceptably descoped flagship mission or proposed for reprogramming to 
other Planetary Science project lines in accordance with the decadal 
survey's decision rules.
    The Senate approved its FY12 budget for NASA on November 1, 2011 
providing $1.5 billion for Planetary Science. See Appendix A for a 
complete breakdown by mission area. In its report, the committee 
states:

        The Committee notes that the most recent decadal survey in 
planetary science urges NASA to reformulate planetary science flagship 
missions to fit within the projected budget, as recommended. The NASA 
budget, like the Federal budget overall, is shrinking, not growing.

    The following chart, provided by NASA, illustrates the constraints 
the division is currently under and dramatically demonstrates the 
downward pressure on the future budget for planetary science.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order.
    Good morning. Welcome to today's hearing entitled 
``Exploring Mars and Beyond: What's Next for the U.S. Planetary 
Science.'' In front of you are packets containing the written 
testimony, biographies and, Truth in Testimony disclosures for 
today's witness panel. At this time I will recognize myself for 
five minutes for an opening statement.
    Today's hearing has been called to examine the future 
course of NASA's Planetary Sciences program, looking 
particularly at NASA's plans to carry out recommendations put 
forward in the Decadal Survey released earlier this spring by 
the National Academy of Sciences.
    Before getting started, however, I would like to thank our 
witnesses for agreeing to testify today. I realize a lot of 
work and effort goes into preparing for your appearance, and I 
want you to know that your wisdom and experience will be of 
immense value to this Committee and Congress in the months and 
years ahead as we strive to maintain a vital national space 
program.
    In March of this year, the National Academy of Sciences 
published Visions and Voyages for Planetary Science in the 
Decade 2013-2022. This report reflects a broad consensus of the 
planetary science community, first by identifying key questions 
to guide NASA in the decade ahead as it endeavors to develop 
the next series of missions, and then by providing NASA the 
tools needed to maintain a balanced and vital program that 
looks broadly across our solar system. It is the product of an 
immense effort that sought a wide range of input, including 
papers, meetings and reviews by a committee chaired by Dr. 
Steven Squyres.
    Unfortunately, budget forecasts provided by NASA to the 
Academy proved to be optimistic. To its credit, the survey 
committee had the foresight to anticipate budget shortfalls and 
included in their recommendations steps that the agency should 
follow to align programs with resources, all the while 
maintaining balance across a set of missions.
    For fairly obvious reasons, exploration of Mars has become 
the largest component of NASA's Planetary Science program, as 
well as one of its most visible. Through development of 
critical technologies, NASA has orbited the planet with 
powerful satellites, put rovers on its surface, and in less 
than two weeks' time NASA is preparing to launch yet another 
rover that will be bigger and more capable still.
    The conundrum now facing NASA is selecting a mission that 
is the next logical step in our exploration of Mars, and how to 
pay for it. The Decadal Survey selected as its top priority 
mission a Mars sample-caching rover that would, in effect, be 
the first of a three-phase mission to return Mars soil samples 
to Earth. This will be a very expensive undertaking, and one 
obvious option would be to engage with the European Space 
Agency on a collaborative mission, thus reducing costs to the 
United States.
    In November 2009, NASA Administrator Bolden and ESA 
Director General Dordain signed a joint Statement of Intent 
that spelled out a series of steps for the exploration of Mars 
that both agencies, working collaboratively, hoped to pursue. 
Quoting from the statement: ``NASA and ESA agree to consider 
the establishment of a new joint initiative to define and 
implement their scientific, programmatic and technological 
goals for the exploration of Mars.''
    Initially focusing on 2016 and 2018, this initiative would 
span several launch opportunities with landers and orbiters 
conducting astrobiological, geological, geophysical, 
climatological and other high-priority investigations and 
aiming at returning samples from Mars in the mid-2020s.
    So the question is, are we ready to make that commitment? 
Will NASA be a reliable partner, able to sustain obligations 
that span years, Administrations, and unpredictable budgets? If 
not resolved quickly, I am deeply worried that NASA will be 
viewed by our international partners as an unreliable, 
schizophrenic agency. On the one hand NASA is actively seeking 
international partners to collaborate on future missions; on 
the other, the Administration appears to be interfering with 
the agency's efforts to reach out and engage foreign 
governments in future flagship missions. If these internal 
conflicts aren't soon resolved, NASA could be left alone to fly 
its own missions with budgets that will result in fewer flight 
opportunities. Meanwhile, other international space agencies 
will collaborate, and in time, they may well be able to fly 
space missions that were once the domain of NASA.
    Adding further uncertainties are NASA's struggles with the 
James Webb Space Telescope. To its credit, NASA identified 
offsets across the Science Mission Directorate, including 
Planetary Science, but did it in a way that did not undermine 
its ability to proceed with a descoped Mars sample-caching 
rover. Unfortunately, the White House has not yet approved the 
plan for release, preventing NASA from living up to its 
commitments to ESA, and frustrating our European partners. 
Adding further insult, the White House won't even reveal what 
offsets will be taken out of Planetary Science's fiscal year 
2012 budget, suggesting that they will wait until next February 
with the fiscal year 2013 budget request rollout to identify 
offsets in the fiscal year 2012 operating plan. I can't begin 
to make sense of the rationale for such a delay.
    Before closing, I also want to stress the importance of 
maintaining balance in the Planetary Science portfolio, both in 
terms of mission size and destination. NASA must ensure that 
flagship missions don't overwhelm the Planetary Science budget, 
as well as preserve a regular cadence of small to medium size 
missions.
    I realize my statement has covered a lot of territory, but 
in today's environment, discussing future Planetary Sciences 
missions necessarily involves agency budgets, international 
partners, the planetary science community, and the James Webb 
Space Telescope.
    I want to point out that the Office of Management and 
Budget was invited to testify at this hearing, but chose not to 
appear. I am not surprised, but I find it regrettable. OMB has 
enormous influence over NASA, as their decisions in many ways 
define the agency's future roles and missions. It would have 
been helpful to gain their perspective in these discussions.
    [The prepared statement of Mr. Palazzo follows:]

     Prepared Statement of Steven M. Palazzo, Subcommittee Chairman
    Today's hearing has been called to examine the future course of 
NASA's Planetary Sciences program, looking particularly at NASA's plans 
to carry out recommendations put forward in the Decadal Survey released 
earlier this spring by the National Academy of Sciences.
    Before getting started, however, I'd like to thank our witnesses 
for agreeing to testify today. I realize a lot of work and effort goes 
into preparing for your appearance, and I want you to know that your 
wisdom and experience will be of immense value to this Committee and 
Congress in the months and years ahead as we strive to maintain a vital 
national space program.
    In March of this year the National Academy of Sciences published 
Visions and Voyages for Planetary Science in the Decade 2013-2022. This 
report reflects a broad consensus of the Planetary Science community, 
first by identifying key questions to guide NASA in the decade ahead as 
it endeavors to develop the next series of missions, and then by 
providing NASA the tools needed to maintain a balanced and vital 
program that looks broadly across our solar system. It is the product 
of an immense effort that sought a wide range of input, including 
papers, meetings, and reviews by a committee chaired by Dr. Steven 
Squyres.
    Unfortunately, budget forecasts provided by NASA to the Academy 
proved to be optimistic. To its credit the survey committee had the 
foresight to anticipate budget shortfalls and included in their 
recommendations steps that the agency should follow to align programs 
with resources, all the while maintaining balance across a set of 
missions.
    For fairly obvious reasons, exploration of Mars has become the 
largest component of NASA's Planetary Science program, as well as one 
of its most visible. Through development of critical technologies, NASA 
has orbited the planet with powerful satellites, put rovers on its 
surface, and in less than two weeks time is preparing to launch yet 
another rover that will be bigger and more capable still.
    The conundrum now facing NASA is selecting a mission that is the 
next logical step in our exploration of Mars, and how to pay for it. 
The decadal survey selected as its top priority mission a Mars sample-
caching rover that would, in effect, be the first of a three-phase 
mission to return Mars soil samples to Earth. This will be a very 
expensive undertaking, and one obvious option would be to engage with 
the European Space Agency on a collaborative mission, thus reducing 
costs to the US.
    In November 2009, NASA Administrator Bolden and ESA Director 
General Dordain signed a joint Statement of Intent that spelled out a 
series of steps for the exploration of Mars that both agencies, working 
collaboratively, hoped to pursue. Quoting from the statement: "NASA and 
ESA agree to consider the establishment of a new joint initiative to 
define and implement their scientific, programmatic, and technological 
goals for the exploration of Mars. Initially focusing on 2016 and 2018, 
this initiative would span several launch opportunities with landers 
and orbiters conducting astrobiological, geological, geophysical, 
climatological, and other high-priority investigations and aiming at 
returning samples from Mars in the mid-2020s." So the question is, are 
we ready to make that commitment? Will NASA be a reliable partner, able 
to sustain obligations that span years, Administrations, and 
unpredictable budgets?
    If not resolved quickly, I am deeply worried that NASA will be 
viewed by our international partners as an unreliable, schizophrenic 
agency. On the one hand NASA is actively seeking international partners 
to collaborate on future missions; on the other, the Administration 
appears to be interfering with the agency's efforts to reach out and 
engage foreign governments in future flagship missions. If these 
internal conflicts aren't soon resolved, NASA could be left alone to 
fly its own missions with budgets that will result in fewer flight 
opportunities. Meanwhile other international space agencies will 
collaborate, and in time, they may well be able to fly space missions 
that were once the domain of NASA.
    Adding further uncertainties are NASA's struggles with the James 
Webb Space Telescope. To its credit, NASA identified offsets across the 
Science Mission Directorate--including Planetary Science--but did it in 
a way that did not undermine its ability to proceed with a de-scoped 
Mars sample-caching rover. Unfortunately, the White House has not yet 
approved the plan for release, preventing NASA from living up to its 
commitments to ESA, and frustrating our European partners. Adding 
further insult, the White House won't even reveal what offsets will be 
taken out Planetary Science's FY12 budget, suggesting that they'll wait 
until next February with the FY13 budget request rollout to identify 
offsets in the FY12 operating plan. I can't begin to make sense of the 
rationale for such a delay.
    Before closing, I also want to stress the importance of maintaining 
balance in the Planetary Science portfolio, both in terms of mission 
size and destination. NASA must ensure that flagship missions don't 
overwhelm the Planetary Science budget, as well as preserve a regular 
cadence of small to medium size missions.
    I realize my statement has covered a lot of territory, but in 
today's environment, discussing future Planetary Sciences missions 
necessarily involves agency budgets, international partners, the 
planetary science community, the James Webb Space Telescope.
    I want to point out that the Office of Management and Budget was 
invited to testify at this hearing, but chose not to appear. I am not 
surprised, but I find it regrettable. OMB has enormous influence over 
NASA, as their decisions in many ways define the agency's future roles 
and missions. It would have been helpful to gain their perspective in 
these discussions.

    Chairman Palazzo. I now recognize our Ranking Member, Ms. 
Edwards, for her opening statement.
    Ms. Edwards. Thank you very Chairman Palazzo, and thank you 
for holding the hearing today to receive testimony on the 
prospects for future exploration of Mars and the implications 
of the current fiscal environment on the future of U.S. 
planetary science.
    Over the past 15 years, NASA has carried out a systematic 
exploration of Mars using orbiting spacecraft, landers and 
rovers. These missions have resulted in dramatic changes in our 
understanding of the planet, its potential to harbor life, and 
our ability to eventually carry out human exploration of Mars. 
They have also established the United States as the undisputed 
leader in Mars exploration. The United States is the only 
Nation is the world that is capable of successfully landing and 
operating a spacecraft on Mars. Our Mars exploration program 
has been a scientific success story. It is the envy of the 
world and it has inspired countless young people to pursue 
education and careers in science and technology.
    What we don't know is whether or how that story of success 
will continue, and especially whether the United States will 
retain its leadership role. While the Mars Science Laboratory 
rover, Curiosity, is set to launch in less than two weeks, the 
future of the U.S. Mars exploration program is quite unclear.
    Given the extremely difficult fiscal challenges facing our 
Nation, international collaboration, as recommended by the 
National Academy of Sciences' Planetary Science Decadal Survey, 
would seem to be a sensible path forward that will allow the 
United States to sustain systematic exploration and pursue the 
top-priority large mission, Mars Sample Return. Indeed, the 
President's national space policy also calls for such 
international collaborations in space activities. Building on 
their longstanding international partnership in space science, 
NASA and ESA, the European Space Agency, planned a joint 
initiative to collaborate on a series of future Mars missions. 
However, the status of that initiative now appears to be in 
question.
    In order to keep the vitally important James Webb Space 
Telescope on track, NASA will need to find an additional $1.2 
billion over the next five years from within its science and 
agency operations budget. Decisions on how those science budget 
offsets will be made have significant implications for the 
future of the Mars program. Reportedly, OMB officials are 
overruling the scientific experts at NASA on how those offsets 
should be best allocated across the agency's science programs, 
with the result that NASA's long-planned joint NASA-ESA Mars 
program appears to be in serious jeopardy. If these reports are 
accurate, such action by OMB is a serious cause for concern, 
and I too would like to hear from OMB about that. This 
Subcommittee needs to find out whether those reports are 
accurate. And if they are not, we need to find out what is 
holding up NASA's plans to move forward with ESA.
    I certainly want to make sure that NASA works vigorously to 
make sure that costs are kept under control as the agency 
embarks on the joint Mars program. Strategies to instill cost 
discipline on expensive missions can certainly be put into 
place, and we must be careful to avoid shortsighted, 
bureaucratic decisions that can end up dismantling a highly 
successful program and skilled workforce, jeopardizing U.S. 
leadership, and retreating from a carefully constructed 
international partnership. The results of ill-conceived 
decisions, bureaucratic decisions, cannot be easily recovered 
at some later date, and we have to place a priority, I think, 
on the science.
    So I hope to hear from each of our witnesses today on the 
following. Has NASA's science program developed a credible plan 
to accommodate the cost growth of James Webb that will enable 
NASA to pursue the long-planned joint Mars initiative with the 
European Space Agency? What is preventing NASA from being able 
to move forward and commit to the partnership on the 2016 and 
2018 joint Mars missions, and what is needed to get things 
moving? What is at stake if the United States doesn't commit to 
moving forward with ESA on Mars?
    I look forward to hearing the responses to these questions 
and others from the testimony of our witnesses today, and I 
thank you for being here and thank you, Mr. Chairman, for your 
indulgence with my tardiness.
    [The prepared statement of Ms. Edwards follows:]

                  Prepared Statement of Donna Edwards
    Chairman Palazzo, thank you for holding today's hearing to receive 
testimony on the prospects for future exploration of Mars and the 
implications of the current fiscal environment on the future of U.S. 
planetary science.
    Over the past 15 years, NASA has carried out a systematic 
exploration of Mars using orbiting spacecraft, landers, and rovers. 
These missions have resulted in dramatic changes in our understanding 
of the planet, its potential to harbor life, and our ability to 
eventually carry out human exploration of Mars. They have also 
established the United States as the undisputed leader in Mars 
exploration. The United States is the only nation is the world that is 
capable of successfully landing and operating a spacecraft on Mars. Our 
Mars exploration program has been a scientific success story, is the 
envy of the world, and has inspired countless young people to pursue 
education and careers in science and technology.
    What we don't know is whether or how that story of success will 
continue, and especially whether the U.S. will retain its leadership 
role. While the Mars Science Laboratory rover, Curiosity, is set to 
launch in less than two weeks, the future of the U.S. Mars exploration 
program is very unclear.
    Given the extremely difficult fiscal challenges facing our nation, 
international collaboration, as recommended by the National Academy of 
Sciences' planetary science decadal survey, would seem to be a sensible 
path forward that will allow the U.S. to sustain systematic exploration 
and pursue the top priority large mission--Mars Sample Return. Indeed, 
the President's national space policy also calls for such international 
collaborations in space activities. Building on their long-standing 
international partnership in space science, NASA and ESA planned a 
joint initiative to collaborate on a series of future Mars missions. 
However, the status of that initiative now appears to be in question.
    In order to keep the vitally important James Webb Space Telescope 
on track, NASA will need to find an additional $1.2 billion over the 
next five years from within its science and agency operations budgets. 
Decisions on how those science budget offsets will be made have 
significant implications for the future of the Mars program. 
Reportedly, OMB officials are overruling the scientific experts at NASA 
on how those offsets should best be allocated across the agency's 
science programs, with the result that NASA's long-planned joint NASA-
ESA Mars program appears to be in serious jeopardy. This action by OMB 
is a serious cause for concern.
    This Subcommittee needs to find out whether those reports are 
accurate. And if they are not, we need to find out what is holding up 
NASA's plans to move forward with ESA. I certainly want to make sure 
that NASA works vigorously to make sure that costs are kept under 
control as the agency embarks on the joint Mars program. Strategies to 
instill cost discipline on expensive missions can certainly be put into 
place. We must be careful to avoid short-sighted, bureaucratic 
decisions that can end up dismantling a highly successful program and 
skilled workforce, jeopardizing U.S. leadership, and retreating from a 
carefully constructed international partnership. The results of ill-
conceived decisions cannot be easily recovered from at some later date.
So I hope to hear from each of our witnesses today on the following:

    1.  Has NASA's Science program developed a credible plan to 
accommodate the cost growth on James Webb that will enable NASA to 
pursue the long-planned joint Mars initiative with ESA?

    2.  What is preventing NASA from being able to move forward and 
commit to the partnership with ESA on the 2016 and 2018 joint Mars 
missions, and what is needed to get things moving?

    3.  What's at stake if the U.S. doesn't commit to moving forward 
with ESA on Mars?

    I look forward to hearing the responses to these questions and the 
testimonies of our witnesses today.

    Chairman Palazzo. Thank you, Ms. Edwards.
    At this time I will yield to the Chairman of the Science, 
Space, and Technology Committee for a brief opening statement. 
Mr. Hall.
    Chairman Hall. Thank you, Mr. Palazzo, and I thank you for 
calling this hearing to examine NASA's planetary science 
program.
    I can't think of a more exciting and successful robotic 
space program that has electrified so many of our people, young 
and old, with images and discoveries about the solar system in 
which we live: the Mars exploration rovers, the Cassini mission 
is still returning incredible data and pictures from Saturn, 
the Galileo mission that orbited Jupiter and to me one of the 
most notable achievements are the Voyager satellite that were 
launched in 1977 and still operating today and are the farthest 
manmade objects lofted from Earth.
    There are so many other remarkable missions I didn't name 
but the point is that NASA's Planetary Science program has 
accomplished so very much and has helped stake NASA's claim as 
one of the world's leading science and exploration 
institutions, and it is important that we work together to 
maintain this string of exciting missions for the next 
generation to enjoy the wonderment of science.
    There is, of course, the business side to attend to during 
today's hearing, and I don't mean to distract from that task 
but I just want to thank our witnesses for being here and to 
urge NASA, the Administration, the science community and 
Congress to sustain this noble enterprise. I only wish they 
worked as hard at keeping the space station as they have in 
this program.
    I yield back.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall
    Mr. Palazzo, thank you for calling today's hearing to examine 
NASA's Planetary Science Program. I can't think of a more exciting and 
successful robotic space program that has electrified so many of our 
people, young and old, with images and discoveries about the Solar 
System in which we live.
    The Mars Exploration Rovers; the Cassini mission that is still 
returning incredible data and pictures from Saturn; the Galileo mission 
that orbited Jupiter; and to me, one of the most notable achievements 
are the Voyager satellites that were launched in 1977 and still 
operating today, and are the farthest man-made objects lofted from 
Earth. There are so many other remarkable missions I didn't name, but 
the point is that NASA's Planetary Science program has accomplished so 
much, and has helped stake NASA's claim as one of the world's leading 
science and exploration institutions.
    And it's important that we work together to maintain this string of 
exciting missions for the next generation to enjoy the wonderment of 
science.
    There is, of course, the business side to attend to during today's 
hearing, and I don't mean to distract from that task. But I just wanted 
to thank our witnesses for being here, and to urge NASA, the 
Administration, the science community, and Congress to sustain this 
noble enterprise.

    Chairman Palazzo. Thank you, Mr. Chairman.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Before proceeding with the introduction of witnesses, I 
would like to ask unanimous consent to enter into the record 
written statements submitted by the Planetary Society, the 
European Space Agency, and by Dr. Mark Sykes, CEO and Director 
of the Planetary Science Institute. Hearing no objection, so 
ordered.
    [The information appears in Appendix II:]
    Chairman Palazzo. At this time I would like to introduce 
our witness panel. Our first witness is Dr. Jim Green, Director 
of Planetary Science Division of NASA. Dr. Green began his 
career in NASA's Marshall Space Flight Center in 1980. In 1985, 
he transferred to the Goddard Space Flight Center, where he 
served as Chief of the Space Science Data Operations Office as 
well as Chief in the Science Proposals Support Office. He also 
served as a Co-Investigator and Deputy Project Scientist on the 
IMAGE Mission. In August 2006, Dr. Green was named Director of 
the Planetary Science Division. Dr. Green received his Ph.D. in 
space physics at the University of Iowa. Welcome, Dr. Green.
    Our second witness is Dr. Steven Squyres, the Goldwin Smith 
Professor of Astronomy at Cornell University. Dr. Squyres 
received his Ph.D. from Cornell in 1981 and spent five years 
working at Ames Research Center before returning to his alma 
mater as a faculty member. Dr. Squyres has participated in many 
of NASA's planetary missions including the Voyager mission to 
Jupiter and Saturn, the Magellan mission to Venus, and most 
recently, as Principal Investigator for the science payload on 
the Mars exploration rover project. Dr. Squyres served as Chair 
of the Planetary Decadal Survey for the National Research 
Council, and within just the last two weeks was named as Chair 
of the NASA Advisory Committee. Dr. Squyres, thank you for 
joining us today.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of Congress will 
have five minutes each to ask questions.
    I now recognize our first witness, Dr. Jim Green, Planetary 
Science Division Director of the Science Mission Directorate in 
NASA.

   STATEMENT OF DR. JAMES GREEN, DIRECTOR, PLANETARY SCIENCE 
              DIVISION, MISSION DIRECTORATE, NASA

    Dr. Green. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
testify concerning the NASA's Planetary Science program, our 
plans to implement the National Academy of Sciences' Planetary 
Decadal Survey, and our joint Mars exploration program with the 
European Space Agency, or ESA.
    We are in the midst of what we call at NASA and our 
planetary science community call the Year of the Solar System. 
This current 670-day period--it is a Mars year, after all--is 
chockfull of astounding scientific results and amazing 
accomplishments of many of our planetary missions to a wide 
variety of bodies throughout the solar system. My written 
testimony summarizes these for you.
    In my brief few minutes here, I will only say that the 
capstone of the Year of the Solar System activity is the launch 
and landing of the Mars Science Laboratory and its rover 
Curiosity on the surface of Mars. MSL now sits on top of its 
launch vehicle awaiting its launch window opening on November 
25th, and for me, Thanksgiving will occur after a successful 
launch.
    Looking to the future, NASA is committed to the National 
Academy of Sciences' Planetary Decadal Survey in planning the 
future of our planetary science program. We take the Planetary 
Science Decadal Survey very seriously because it represents a 
broad national science community consensus. The Planetary 
Science Decadal assures the progress on our highest priority 
science questions and keeps NASA and the planetary science 
community focused on these objectives.
    The survey recommends NASA conduct a balanced mix of 
missions:Discovery, New Frontier, and flagship missions. The 
survey's highest priority flagship mission is a Mars 2018 rover 
and sample-caching mission as a first step in a Mars science 
sample return campaign. It can only be done, as the decadal 
survey states, if NASA is able to reduce the cost to less than 
$2.5 billion. The survey further recognizes the need for Mars 
2016 and 2018 missions to proceed together, and the survey 
recognizes that NASA must move forward with these, only with 
these to accomplish these missions.
    NASA has been studying approaches to return samples from 
Mars to Earth for well over a decade, and now the science 
community is ready and eager for us to get started as 
delineated in the new Planetary Science Decadal Survey. Since 
2007, NASA and ESA have been planning Mars sample return 
concepts together. The joint effort led to a 2009 Statement of 
Intent signed by the NASA Administrator and Director General of 
ESA on a joint Mars robotic exploration program, and this 
includes Mars 2016 and 2018 missions. We are working 
extensively with ESA since the 2009 agreement to define a 
program to accomplish these missions within the available 
budget. The results of this effort must be ready soon if we are 
to make the 2016 launch window and to enable the NASA/ESA 
partnership to move forward.
    The decadal survey's second priority flagship is a Jupiter 
Europa mission. This orbiter, as the decadal survey recognizes, 
or JEO, Jupiter Europa Orbiter, would cost approximately $4.7 
billion, far more than the available budget for a planetary 
flagship mission, and so the decadal recommends to NASA to 
undertake a redefined JEO mission at a cost that would minimize 
the size of the budget necessary to be increased to enable this 
mission. That JEO mission concept study is well underway and 
should be completed late next spring.
    The survey's third priority flagship mission is a Uranus 
orbiter and probe, and rounding out the list are an Enceladus 
orbiter and a Venus climate orbiter.
    Currently, NASA is working to define an approach with ESA 
to implement the highest priority flagship. Overall, we are 
working to define a flagship mission that can be implemented in 
this decade in the context of a balanced mix of mission sizes 
and classes recommended by the decadal.
    I would like to take this opportunity now to publicly thank 
Dr. Steve Squyres for his leadership of the academy committee 
that produced the planetary decadal survey. It is providing us 
a tremendous valuable guide in planning our future planetary 
science portfolio as we knew it would be.
    Thank you for the opportunity to appear before this 
Committee today, and I am pleased to answer any questions you 
may have.
    [The prepared statement of Dr. Green follows:]

            Prepared Statement of Dr. James Green, Director,
        Planetary Science Division, Science Mission Directorate,
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to discuss the accomplishments, status, and future 
direction of NASA's Planetary Science program and, in particular, the 
Mars Exploration Program. NASA's Planetary Science program has produced 
a long series of visible and exciting triumphs of American science, 
engineering, and exploration leadership. NASA spacecraft have visited 
every planet in our solar system, as well as many of the variety of 
small bodies such as comets and asteroids that have much to tell us 
about the solar system's formation. So many of our past and current 
efforts are coming to fruition in the near future that NASA thinks of 
the period from October 2010 through August 2012--the length of one 
Martian year--as the Year of the Solar System.

Recent Accomplishments and Current Missions

    NASA's current Planetary Science missions in space are returning 
imagery and data that are revolutionizing our understanding of our 
solar system's history and its potential habitability--past, present or 
future.

    <bullet>  Planetary missions Deep Impact and Stardust, whose prime 
missions were completed, were retargeted to two comet bodies: Hartley 2 
and Tempel 1. Surprisingly, Hartley 2 was found to spew basketball and 
smaller sized snowballs of cometary material. Scientists now recognize 
that this comet is near its evolutionary end state of completely 
dissipating into the solar system. By revisiting Tempel 1, we obtained 
new views of how the comet evolved after its perihelion passage and 
obtained information on the region previously impacted during the Deep 
Impact flyby.

    <bullet>  MESSENGER arrived in orbit around Mercury last March. 
Since then, it has found that Mercury's magnetic field is offset far to 
the north of its core--a feature we cannot now explain. MESSENGER is 
exploring surface features scientists are calling ``hollows'' that 
indicate they may be actively forming today.

    <bullet>  Launched in September 2011, the GRAIL mission to reveal 
the structure of the interior of Earth's moon arrives in lunar orbit on 
New Year's Eve and will conduct its science mission through the first 
half of 2012.

    <bullet>  Launched in August 2011, the Juno mission to Jupiter is 
on its way to an arrival in 2016. During its one-year mission in polar 
orbit, Juno will draw a detailed picture of Jupiter's magnetic field 
and find out whether there is a solid core beneath its deep atmosphere.

    <bullet>  The Dawn spacecraft is currently in orbit around the 
asteroid Vesta. There it found that Vesta's southern hemisphere boasts 
one of the highest mountains in the solar system, three times the 
height of Mt. Everest. The striations encircling Vesta and other 
features point to a giant impact with another body. Dawn will depart 
Vesta in mid-2012 on its journey to Ceres so it can compare these two 
large asteroids that appear to have dramatically different histories.

    <bullet>  Cassini continues its long reconnaissance of Saturn and 
its moons, and will do so through 2017. Cassini has observed aurorae 
and seasonal change on Saturn and Titan its largest moon. It has 
observed water and organic molecules ejected from geysers on the 
southern reaches of the small moon Enceladus. And Cassini has found 
that the giant moon Titan has rain and lakes-not of water but of 
methane and ethane-making it much like what we believe the early Earth 
was like.

    <bullet>  The New Horizons spacecraft will flyby Pluto in 2015-the 
first mission to do so-and will continue into the Kuiper Belt that 
comprises many Pluto-like objects. In 2010, the spacecraft passed its 
halfway point.

    <bullet>  OSIRIS-REx will be the next mission in our New Frontier 
Program, the first U.S. mission to return samples from an asteroid back 
to Earth.

    <bullet>  The next Discovery mission will be selected from the 
following candidates: a geophysical monitoring station on Mars; a 
mission to land a boat in a lake on Titan; and mission to land on a 
comet multiple times and observe changes as it approaches the Sun.

    <bullet>  At Mars, we have several missions in operation, recently 
completed, or in development. NASA has long had a strategic, multi-
mission approach to thoroughly investigating Mars with a scope, 
intensity, and duration exceeded only by our study of planet Earth. 
That is because, beyond Earth, Mars is the most likely and most 
accessible place to look for signs of life in the solar system. And so 
we want to study its atmosphere and geology to understand Mars' past, 
present, and future potential to harbor life.

       <bullet>  Currently in orbit around Mars are the Mars 
Reconnaissance Orbiter (MRO) and the Mars Odyssey, which have revealed 
tantalizing features that appear to have been shaped by water flowing 
on the surface in the past. We have recently found evidence of briny 
liquid water flows that disturb the surface of some areas on a 
seasonally variable basis. MRO imagery was crucial in selecting the 
landing site for the Mars Science Laboratory.

       <bullet>  The Mars Exploration Rover Spirit, which ceased 
operation in March 2011, made the first close-up inspection of water-
altered rocks and carbonates. In August, the Mars Exploration Rover 
Opportunity reached Endeavor Crater. This crater, about the size of the 
beltway around Washington, DC, contains clay minerals that may hold 
clues to an ancient, habitable environment in the early, wet Noachian 
epoch of Mars.

       <bullet>  The Mars Atmosphere and Volatile Evolution (MAVEN) 
mission in development for launch in 2013 will help us understand how 
and why the Martian atmosphere transitioned from the denser, wetter 
atmosphere of its past to the thinner, dryer one we see today.

       <bullet>  The Mars 2016 Trace Gas Orbiter, planned as part of 
the ESA-US ExoMars Mission concept (Mars 2016 and Mars 2018) currently 
under review, is designed to investigate the seasonally variable 
concentrations of methane and other gases in the Martian atmosphere and 
attempts to determine their origins.

    Capping this Year of the Solar System, the Mars Science Laboratory 
(MSL) now sits on top of its Atlas V launch vehicle on its launch pad, 
with final preparations for launch on track for the opening of the 
launch window on November 25th. The Mars Science Laboratory rover, 
named Curiosity, is the next long stride forward in our scientific 
exploration of the Martian surface. The Curiosity rover will analyze 
dozens of samples scooped from the soil, drilled from rocks, and pulled 
from the atmosphere. MSL is designed to seek to determine the planet's 
habitability-that is, whether it ever did or whether it could support 
life. Curiosity's ability to detect and characterize organic compounds, 
and determine where the ``signs of life'' might be preserved, will be 
vital to the selection of instruments and landing site for any other 
mission involving landing on the Red Planet.
    NASA's Planetary Science program over the past decade has been a 
balanced program of competed missions such as those selected through 
the Discovery and New Frontiers program, and strategic missions such as 
Cassini and most of the Mars missions. Mars has warranted special 
attention because of its potential to answer the broadest range of 
questions concerning solar system history and habitability.

Planning the Future of Planetary Science - Implementing The Decadal 
                    Survey

    NASA uses the recommendations of the National Academy of Sciences' 
Decadal Survey in planning the future of our Planetary Science program 
in the climate of a constrained Federal budget. Decadal surveys have 
proven indispensable in establishing a broad national science community 
consensus on the state of the science, the questions to be addressed, 
and most importantly, a prioritized list of candidate actions and 
mission concepts to be pursued or studied over the decade. NASA 
contracts with the National Academy of Sciences to prepare decadal 
surveys in all four science areas of NASA's Science Mission 
Directorate: Astrophysics, Earth Science, Heliophysics, and Planetary 
Science.
    NASA received a new Planetary Science Decadal Survey in March 2011. 
This survey, Vision and Voyages for Planetary Science in the Decade 
2013-2022 (NRC, 2011), is the product of hundreds of eminent planetary 
scientists from around the Nation. NASA is extremely grateful to Dr. 
Steven Squyres for his superb leadership of the Academy committee that 
authored the Survey report.
    The new Planetary Science Decadal Survey has three features that 
make it an effective guide for NASA and the Nation's planning. First, 
it recommends a balanced program, and defines what ``balanced'' means 
in terms of the relative levels of investment in small, medium, and 
large (or flagship) missions, technology development, and research & 
analysis. Second, it defines a priority order for flagship mission 
concepts, subject to NASA's ability to define mission concepts that fit 
their expected budget envelope. Third, it defines a set of decision 
rules to help NASA make decisions under different budget outlook 
scenarios. This latter feature is proving especially useful, as the 
budget outlook is less optimistic than the Survey assumed for either 
their ``Recommended Program'' or ``Cost-constrained Program'' options.

    The Survey's first recommendation is that:

       ``NASA's suite of planetary missions for the decade 2012-2022 
should consist of a balanced mix of Discovery, New Frontiers, and 
Flagship missions, enabling both a steady stream of new discoveries and 
the capability to address larger challenges like sample return missions 
and outer planet exploration.''

    The Survey also identified ``the need to maintain programmatic 
balance by assuring that no one mission takes up too large a fraction 
of the planetary budget at any given time.'' NASA is planning its 
Planetary Science portfolio accordingly and using the Planetary Science 
Subcommittee of the NASA Advisory Council for guidance and feedback on 
our specific implementation plans.
    The Survey's highest priority flagship mission is a Mars sample-
caching mission. The Survey identified this as the highest priority 
flagship if three conditions pertain: 1) it is to begin the NASA-
European Space Agency Mars Sample Return campaign; 2) NASA must be able 
to implement its portion of the mission at a cost to NASA of no more 
than approximately $2.5 billion; and, 3) the mission must be launched 
by 2018. NASA is working with ESA to define a mission that meets these 
criteria and can be accommodated within anticipated resources.
    Following the Mars sample-caching mission, the next highest 
priority flagship mission is the Jupiter Europa Orbiter. Europa and 
Mars Sample Return were both in the prior Decadal Survey (from 2002), 
and, thus, NASA has a long history of studying Europa mission concepts. 
Here again, NASA had been coordinating with ESA on these studies and, 
prior to the recent Decadal Survey, had been studying a joint two-
satellite Jupiter System Mission. Given the cost of the Europa mission, 
estimated by the Survey at $4.7 billion, the Survey recommended that:

       ``NASA should immediately undertake an effort to find major cost 
reductions for JEO, with the goal of minimizing the size of the budget 
increase necessary to enable the mission.''

    NASA is currently conducting such a study with this objective. The 
third priority flagship mission in the Survey is a Uranus Orbiter and 
Probe mission. Rounding out the Survey's list of flagship candidates 
are an Enceladus Orbiter and a Venus Climate Mission.
    The Decadal Survey also recommended that NASA continue to allow 
Discovery missions to be proposed to Mars. In fact, NASA is currently 
supporting development of a mission concept for a Mars geophysical 
monitoring station as one of three in competition to be the next 
Discovery mission. This mission would collect data on the interior of 
Mars. Other than the Earth and to a lesser extent the Moon, there have 
been no surface-based observations of the interior of terrestrial 
planetary bodies.

Potential Mars Mission Under Consideration

    NASA is studying the Mars sample-caching mission for launch in 2018 
and also the Mars 2016 Trace Gas Orbiter (TGO) in concert with ESA. 
NASA and ESA have been working on this since 2007. As a basis for these 
discussions, in November 2009, the NASA Administrator and the Director 
General of ESA signed a Statement of Intent for Potential Joint 
Exploration of Mars ``to consider the establishment of a joint 
initiative to define and implement their scientific, programmatic, and 
technological goals for the exploration of Mars. Initially focusing on 
2016 and 2018, this initiative would span several launch opportunities 
with landers and orbiters . . . ''
    As currently envisaged, the Mars 2016 and 2018 missions are linked 
since the 2016 mission is an orbiter that would not only perform 
atmospheric trace gas science but also provide the space 
telecommunications relay services to enable communication between 
mission controllers on Earth and the 2018 rover-cacher. In July 2010, 
NASA and ESA selected science instruments for the 2016 TGO mission from 
a joint Announcement of Opportunity. In June 2011, NASA and ESA agreed 
to explore a single rover for the 2018 mission to accomplish both our 
science and technology goals. The 2018 mission to put a cacher-rover on 
the surface of Mars would take advantage of the best energetics (the 
energy required to transfer mass from the Earth to Mars) in a decade 
and a half.
    Due to increasing budget pressures associated with the nation's 
fiscal challenges, in June 2011 NASA requested ESA's support for a 
review of the potential joint Mars program in an effort to maximize 
available resources, while continuing to meet key scientific and 
technical requirements of both Agencies. This joint review is currently 
underway. As part of the ongoing technical review, ESA recently invited 
the Russian Space Agency, Roscosmos, to consider potential 
participation in the Mars 2016 and Mars 2018 missions. Russia has yet 
to formally respond to this invitation.
    NASA has had a long and productive history of successful 
cooperation with ESA, particularly in the area of space science. This 
relationship has spanned decades. Last month Administrator Bolden and 
the ESA Director General Dordain met to discuss among other topics the 
progress of the ongoing Mars exploration program review. At that time 
they both reaffirmed their Agencies' commitment to explore cooperation 
on a mutually beneficial Mars exploration program.

Summary

    We are in an era of scientific revolution in our understanding of 
the solar system. The new Planetary Decadal Survey recognizes this 
scientific revolution and charts an exciting and compelling way 
forward. To summarize according to the questions posed in your letter 
of invitation to testify:

    1)  NASA is studying the implementation of the Mars 2016 and Mars 
2018 missions with ESA within available budgetary resources. The Mars 
2018 mission would satisfy the objectives of the mission identified by 
the Decadal Survey as the highest priority flagship mission for the 
coming decade, subject to the conditions identified above and to 
funding availability. And it would be the first step towards returning 
a sample from Mars, which has long been a goal of our larger Mars and 
planetary exploration strategy.

    2)  NASA is pursuing a strategic continuum of flyby, orbit, land, 
rove, and return samples. Ultimately, we plan to return samples from 
the surface of Mars, both for their scientific value and for the 
information they will provide in support of what will ultimately be 
human exploration of the Red Planet. MSL is an integral part of this 
long-range strategy, both for the entry, descent, landing, and roving 
technologies it enables and for the scientific contribution it will 
make to the question of Mars' past and present habitability.

    3)  NASA and the scientific community have no shortage of 
compelling and innovative ideas for a robust planetary exploration 
program, but the fact is that we are in very challenging fiscal times, 
which requires focus, partnerships, and the development of innovative 
approaches to reduce the costs of these exciting missions. The Decadal 
Survey was aware of these constraints and provided multiple concepts 
for potential flagships, depending on the funding available. Of the 
recommended flagship missions, we are currently focusing on the Decadal 
Survey's highest-priority--Mars sample caching--while simultaneously 
seeking new ways of pursuing the other compelling missions such that 
they can be realized within the constrained budgets we face. For 
example, NASA also is currently studying a Jupiter Europa Mission, the 
Survey's second priority flagship mission. The Survey's third priority 
flagship mission is a Uranus Orbiter and Probes mission.

    NASA's plans for addressing the Planetary Science Decadal Survey 
recommendations will be detailed as part of the President's FY 2013 
budget request. This is also the time frame in which NASA and ESA will 
need to have our plans firmly in place in order to implement any 
proposed Mars 2016 and Mars 2018 missions.
    Mr. Chairman and Members of the Subcommittee, I appreciate your 
continued support of NASA's Planetary Science program. I would be 
pleased to respond to any questions you or the other Members of the 
Subcommittee may have.

    Chairman Palazzo. Thank you, Dr. Green.
    I now recognize our next witness, Dr. Steve Squyres, Chair 
of the Committee on Planetary Science Decadal Survey for the 
National Academies of Science. Dr. Squyres.

 STATEMENTS OF DR. STEVEN SQUYRES, GOLDWIN SMITH PROFESSOR OF 
                 ASTRONOMY, CORNELL UNIVERSITY

    Dr. Squyres. Thank you. Mr. Chairman, Members of the 
Subcommittee, thank you very much for the opportunity to appear 
here today.
    The National Research Council's decadal recommendations to 
NASA covered many topics. These include the Planetary Research 
and Analysis Program, technology development, small Discovery 
missions and medium-sized New Frontiers missions. In all of 
these areas, the agency's response so far has been to follow 
the NRC recommendations closely.
    But one area today where NASA has not followed NRC 
recommendations has been the implementation of large flagship 
missions. Flagship missions are vital to the health of 
planetary science, and as stressed in the NRC decadal report, 
flagship missions are an essential part of a balanced program 
of exploration. A program made up of only small- and medium-
class missions would be unable to address the most challenging 
and important issues in planetary science. The decadal report 
did not state that flagship missions have lower priority than 
other smaller missions. It stated that an appropriate response 
to a declining budget is to delay or descope flagship missions, 
which is a very different thing.
    The NRC report provided a prioritized list of planetary 
flagship missions with clear decision rules for choosing among 
them. The highest priority flagship mission recommended by the 
NRC is a Mars sample collection and caching missions to be 
conducted jointly with ESA, the European Space Agency. This 
mission would collect a well-chosen suite of samples for return 
to Earth at a later date. Sample return is the crucial next 
step in Mars exploration and is the best way of addressing the 
question of whether life ever took hold on Mars. The mission 
would also conduct significant new science on the Martian 
surface.
    Other high-priority flagship missions discussed in the 
report included a mission to investigate a probable subsurface 
ocean of liquid water on Jupiter's moon Europa and an orbiter 
probe mission to the ice giant planet Uranus.
    As the spectacularly successful Cassini-Huygens missions to 
Saturn and Titan has shown, international partnerships can be 
enabling for flagship missions. The NRC report concluded that 
partnership with ESA is essential for the Mars sample caching 
mission and for the Mars program overall. The same may also be 
true for high-priority flagships as well.
    ESA can bring substantial capabilities and resources to a 
partnership, lessening both the risk and the financial burden 
to NASA. In my view, the publicly available budget guidelines 
that have been provided to NASA by the Office of Management and 
Budget are sufficient as they stand to allow the agency to 
enter into a partnership with ESA and to carry out the program 
recommended by the NRC. To date, however, the Administration 
has not committed to this partnership.
    If no such commitment to a flagship mission is made, the 
result will be highly detrimental to the future of U.S. 
planetary science. Speaking more pragmatically, I fear that an 
inability to enter into a mutually beneficial partnership with 
a willing, eager and highly capable agency like ESA may 
jeopardize future international partnerships as well.
    Three other points are noteworthy regarding the recommended 
Mars mission specifically. First, NASA's current concept is 
substantially descoped from the original one, exactly in line 
with the decadal recommendation to descope flagship missions in 
the face of declining budgets. Second, the current concept 
makes extensive use of existing hardware designs, reducing cost 
risk. Third, the remaining missions in the sample return 
campaign can be carried out over an extended period of time, if 
necessary, spreading the cost out in time as well.
    Finally, I would like to stress a critical point. The 
ability to carry out the most challenging tasks in deep space 
exploration, tasks like landing a rover on Mars or orbiting 
Europa, is one of our Nation's great scientific and technical 
crown jewels. If we give up that capability by abandoning 
planetary flagship missions, then we do a disservice not just 
to ourselves but also to future generations of American 
scientists, engineers and explorers. So in my view, it is 
essential that NASA maintain this unique capability. The 
resources to do it within a balanced program are available. 
What is needed is the willingness to commit these resources for 
this essential task.
    Thank you.
    [The prepared statement of Dr. Squyres follows:]

Prepared Statement of Dr. Steven W. Squyres, Goldwin Smith Professor of 
                     Astronomy, Cornell University
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today. My name is Steven W. Squyres, and my title 
is Goldwin Smith Professor of Astronomy at Cornell University. I have 
participated for the past thirty years in a number of NASA solar system 
exploration missions. Recently I chaired the planetary decadal survey 
for the National Research Council.

The Planetary Decadal Survey

    The NRC's decadal survey report was requested by NASA and the 
National Science Foundation to review and assess the current status of 
planetary science and to develop a comprehensive science and mission 
strategy. The committee that was established to write the report 
broadly canvassed the planetary science community to determine the 
current state of knowledge and to identify the most important 
scientific questions to be addressed during the period 2013-2022. The 
report presented, to the greatest extent possible, the consensus view 
of the planetary science community. The principal support for research 
related to solar system bodies in the United States comes from the 
Planetary Science Division (PSD) of NASA's Science Mission Directorate. 
The annual budget of PSD is currently approximately $1.3 billion. The 
bulk of this is spent on the development, construction, launch and 
operation of spacecraft. Two types of spacecraft missions are 
conducted: large ``Flagship'' missions strategically directed by the 
PSD, and smaller Discovery and New Frontiers missions proposed and led 
by principal investigators. In my testimony today, I will focus, as 
requested, on the issue of Flagship missions.

Flagship Missions in a Balanced Program

    Because my testimony today concerns Flagship missions, I will 
particularly stress the issue of programmatic balance. The challenge 
faced by NASA is to assemble a portfolio of missions that achieves a 
regular tempo of solar system exploration and a level of investigation 
appropriate for each target object. A program consisting of only 
Flagship missions once per decade or even less frequently could result 
in long stretches of relatively little new data being generated, 
leading to a stagnant community. However, a portfolio of only smaller 
missions would be incapable of addressing important scientific 
challenges like in-depth exploration of the outer planets or returning 
samples from Mars. A key finding of the decadal survey was that 
``NASA's suite of planetary missions for the decade 2013-2022 should 
consist of a balanced mix of Discovery, New Frontiers, and Flagship 
missions (emphasis added), enabling both a steady stream of new 
discoveries and the capability to address larger challenges like sample 
return missions and outer planet exploration.'' The program recommended 
by the NRC was designed to achieve such a balance.
    I should also remark on the NRC's recommended decision rules, which 
dealt with how to reshape the program if necessary in the face of 
declining budgets. The decadal report did not state that Flagship 
missions have lower priority than other smaller missions. It stated 
that an appropriate response to declining budgets is to delay or 
descope Flagship missions - a very different matter from eliminating 
them.

Flagship Mission Priorities

    Based on the broad inputs from the planetary science community and 
the prioritization criteria described above, the decadal survey 
identified and prioritized a number of candidate Flagship missions.
    The highest priority Flagship mission identified by the NRC is a 
Mars rover mission that would be the first of three missions in a 
campaign to return samples from the surface of Mars. It would be 
responsible for characterizing a landing site that has been selected 
for high science potential, and for collecting, documenting, and 
packaging samples for return to Earth. The Mars community, in their 
inputs to the decadal survey, was emphatic in their view that a sample 
return mission is the logical next step in Mars exploration. Mars 
science has reached a level of sophistication that fundamental advances 
in addressing the important questions above will only come from 
analysis of returned samples. This mission would also explore a new 
site and significantly advance our understanding of the geologic 
history and evolution of Mars, even before the cached samples are 
returned to Earth. A crucial aspect of the entire Mars sample return 
campaign is that it would be carried out in partnership with the 
European Space Agency, reducing the costs to NASA. I will return to 
this point below.
    The second highest priority Flagship mission identified by the NRC 
is a mission to characterize Jupiter's moon Europa. Europa is likely to 
have a deep ocean of liquid water beneath its icy crust, making it an 
object of enormous interest as a possible abode for life. The mission 
would put a spacecraft in orbit around Europa, investigating its 
probable ocean and interior, its ice shell, its chemistry and 
composition, and the geology of prospective landing sites. The third 
highest priority Flagship mission is an orbiter and probe mission to 
the ice giant planet Uranus. Galileo and Cassini have performed 
spectacular in-depth investigations of the Jupiter and Saturn systems, 
respectively. The Kepler mission has shown that many exoplanets are 
ice-giant sized. Exploration of a planet like Uranus is therefore the 
obvious and important next step in the exploration of the giant 
planets. This mission would deploy an atmospheric probe into Uranus and 
then enter orbit, making measurements of the planet's atmosphere, 
interior, magnetic field, and rings, as well as multiple flybys of the 
larger uranian satellites.

The Problem

    The NRC's decadal recommendations to NASA covered many topics. 
These included recommended funding levels and content for the planetary 
research and analysis program and technology development program. They 
also included specific recommendations for the structure and content of 
the small Discovery and medium-sized New Frontiers mission lines. I'm 
pleased to report that in all of these areas, the Agency's response has 
been to follow the NRC recommendations closely.
    Unfortunately, the one area to date where NASA has not followed the 
NRC's recommendations has been implementation of Flagship missions. As 
outlined above, Flagship missions are vital to the health of planetary 
science. And as stressed in the NRC decadal report, Flagship missions 
are an essential part of a balanced program of planetary exploration. 
The lack of progress in implementing the recommended approach to 
Flagship missions is cause for serious concern.
    An obvious issue regarding Flagships is their cost. Because the 
costs of Flagship missions are high, even proportionally modest cost 
overruns can have serious consequences for the rest of the program. 
This is the reason that the decadal report placed strong emphasis on 
independent and conservative cost estimation processes. But even in the 
current cost-constrained environment the lack of progress in 
implementing a Flagship mission is surprising.

The Solution

    In my view, the publicly-available budget guidelines that have been 
provided to NASA by the Office of Management and Budget are sufficient 
to allow the Agency to carry out the Mars sample collection and caching 
mission recommended as the highest priority by the NRC. The key to 
achieving this in an affordable way is partnership with the European 
Space Agency.
    As the spectacularly successful Cassini/Huygens mission to Saturn 
has Titan shown, international partnerships can be enabling for 
Flagship missions. The NRC report concluded that partnership with ESA 
is essential for the Mars sample caching mission, and for the Mars 
program overall. ESA can bring substantial capabilities and resources 
to a partnership, lessening both the risk and the financial burden to 
NASA. To date, however, the Administration has not committed to this 
partnership.
    A potential objection to the proposed mission is that it would be 
the first in a series of three missions required to return the samples 
to Earth, each involving significant costs. This concern is offset by 
three factors. First, the first mission in the campaign would do 
significant new science on its own, partially providing an immediate 
justification for its costs. Second, the campaign has been 
intentionally designed so that the three missions can be spread out in 
time, substantially if necessary, to spread the costs over an 
acceptable period. Third, partnership with ESA throughout the entire 
campaign will substantially lower the total costs to NASA.
    Important steps have already been taken to reduce both cost and 
cost risk. NASA's current concept for the Mars sample caching mission 
is substantially descoped from the original one, in line with the 
decadal recommendation to descope Flagship missions in the face of 
declining budgets. In addition, the current concept makes extensive use 
of existing hardware designs, reducing the risk of unexpected cost 
growth. Despite this important progress, however, no commitment to the 
mission has been made.

Summary

    If no commitment to a Flagship mission is made in response to the 
decadal survey recommendations, the result will be highly detrimental 
to the future of U.S. planetary science. More pragmatically, I fear 
that an inability to enter into a mutually beneficial partnership with 
a willing, eager, and highly capable agency like ESA would jeopardize 
future international partnerships as well.
    I would also like to stress a critical point: The ability to carry 
out the most challenging tasks in deep space exploration--tasks like 
landing and roving on Mars--is one of our nation's scientific and 
technical crown jewels. If we give up that capability by abandoning 
planetary Flagship missions, then we do a disservice not just to 
ourselves, but also to future generations of American scientists, 
engineers, and explorers. In my view, it is essential that NASA 
maintain this unique capability. The resources to do it within a 
balanced program are available. What is needed is a willingness to 
commit those resources to this essential task.
    So my message to the Subcommittee today is simple: In order to 
achieve a balanced program of planetary exploration, and to maintain 
American leadership in this field, NASA must be permitted to use its 
available resources to implement the Flagship mission program 
recommended by the NRC's decadal survey.

    Chairman Palazzo. Thank you, Dr. Squyres.
    I thank the panel for their testimony, reminding Members 
that Committee rules limit questioning to five minutes. The 
Chair will at this point open the round of questions. The Chair 
recognizes himself for five minutes.
    Dr. Green, how does restructuring the James Webb Space 
Telescope program and the increased funds needed to complete 
the program affect NASA's Planetary Science Division? Will 
there be programs cancelled as well?
    Dr. Green. The Administration has stated clearly that James 
Webb is a priority and that the funding for James Webb in the 
future based on its shortfall in the existing budget based on 
the President's 2012 submission to Congress would be handled in 
a 50/50 arrangement between the Science Mission Directorate and 
other elements within NASA. In addition to that, OMB has been 
working with the Science Mission Directorate to determine the 
process and procedure to identify those funds and once that has 
been completed, and it is not, it will be delivered to Congress 
in February when the President delivers his 2013 budget.
    Chairman Palazzo. How are you executing the programs in the 
Planetary Science Division knowing that there will be likely 
cuts to those programs nearly halfway through next year, or the 
current fiscal year?
    Dr. Green. Well, currently, as we create through our 
partnership with ESA and discussions on how to implement Mars 
2016 and the Mars 2018 mission, we have entered those 
discussions knowing that there may be changes or possibly 
changes in our current budget profile. So we have considerable 
action with ESA. We have not made commitments that would by the 
Administration commit them to that set of missions and so we 
have done so in good faith that by the time the President has 
determined his priorities, delivered his budget to Congress in 
February, our path forward will be clear.
    Chairman Palazzo. Dr. Squyres, there is a widely held 
perception that NASA is no longer in charge of developing its 
programs and is instead being directed by the OMB on which 
programs to pursue. What is the danger to U.S. scientific 
leadership and to the scientific community as a whole if this 
is indeed the case? And does this undermine the legitimate work 
of the decadal survey process?
    Dr. Squyres. The danger to planetary science in the United 
States is severe if that is the case. As I stressed in my 
opening remarks, flagship missions are an essential part of a 
balanced program of exploration. We rely on flagship missions 
to do the most important science, and if we are not able to 
implement those missions, then our leadership in areas like 
answering fundamental questions like was there ever life on 
Mars, is there life on Europa, these really important 
questions, is going to be, I won't say challenged, it is going 
to go away. We are going to lose a fundamental capability. And 
moreover, not only do we lose the science but we cannot simply 
give up that technical capability, the ability that we have to 
do things like orbiting Europa or landing a rover on Mars. That 
is something that we know how to do in this Nation, and if we 
give that capability up, the people who know how to do that, 
they are going to go off to other jobs, they are going to do 
other things. These are smart people who are in demand and you 
simply cannot reconstruct that instantly. So I feel that the 
danger is severe both to the science that we have identified in 
the NRC report now but also to our prospects for being able to 
do similar science in the future.
    Chairman Palazzo. Why do you say NASA is no longer working 
toward flagship missions?
    Dr. Squyres. I am perplexed, sir. I sense within the agency 
a strong desire to do flagship missions, and my reason for 
saying that is that I know that in response to the NRC's 
report, NASA has totally restructured the partnership with ESA 
for the Mars mission to make it much more affordable, 
affordable within budget guidelines. They have done exactly as 
Jim Green said and they have found ways to--they are working on 
ways to dramatically decrease the size and cost and complexity 
of the Europa mission. So the studies are going forward. The 
designs and the missions are being revamped so that the decadal 
recommendations can be followed and yet there is no commitment 
being made. I am perplexed.
    Chairman Palazzo. Dr. Green, would you like to comment?
    Dr. Green. Yes, I would. Of course, we all know our roles 
and responsibilities within the Federal Government. OMB, is 
role, of course, is one of developing budget with OSTP's use of 
the President's priorities and then implementing that through 
interactions with the agencies and moving forward. My role 
within the Federal Government is to advocate for planetary 
science. I am the top official for the advocate for planetary 
science as we move forward. We recognize in this environment a 
difficult budget situation that we are in that compromises have 
to be made, decisions have to be executed that are based on the 
Administration's priority. Currently, OMB has not officially 
notified NASA of canceling Mars 2016 or 2018. And so those 
discussions are ongoing. We meet with OMB on a regular basis. 
They know the details of our studies. We have worked with them 
quite intimately and of course we are eagerly awaiting what the 
ultimate priorities will be and whether we will be able to 
proceed with the Mars 2016 and 2018 mission as our partnership 
with ESA has delineated.
    Chairman Palazzo. Thank you.
    I now recognize our Ranking Member, Ms. Edwards from 
Maryland.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to both 
of our witnesses, and Dr. Green, I have to tell you, when I 
hear your testimony and I see you, what I see is a person of 
science who has real enthusiasm for the work that you are 
doing. It actually radiates, and so you have given me that 
energy too, and so thank you.
    I want to get right to it. First of all, Dr. Green, did OMB 
review the testimony that you are giving to this Subcommittee 
today?
    Dr. Green. Yes, OMB as our normal procedure does review our 
written testimony.
    Ms. Edwards. And did they have to approve it before you 
could submit it to the Subcommittee?
    Dr. Green. Yes, that is the normal process.
    Ms. Edwards. And Dr. Green, Dr. Squyres testified that the 
National Academies has deemed the joint NASA/ESA Mars sample 
collection and caching mission to be the highest priority 
flagship mission in planetary science, and I appreciate Dr. 
Squyres' testimony about the importance of balance within the 
mission directorate. Yet according to Dr. Squyres, and I quote, 
``To date, however, the Administration has not committed to 
this partnership.'' Is Dr. Squyres correct in saying that the 
Administration has not yet committed to the NASA/ESA mission?
    Dr. Green. As I mentioned earlier, we have not been 
notified by OMB that Mars 2016 or 2018 has been cancelled. 
Therefore, our approach is to continue to work with ESA, 
continue to find ways to lower our costs and meet both of the 
objectives from European Space Agency and for NASA.
    Ms. Edwards. But have you gotten an explicit commitment 
from the Administration on the NASA/ESA partnership?
    Dr. Green. Based on the fact that OMB has not cancelled 
officially the 2016 and 2018 mission, which is part of our 
Statement of Intent that Administrator Bolden and Director 
General Dordain signed in 2009, we are proceeding on good faith 
in our connections with ESA and continuing to plan this 
mission.
    Ms. Edwards. But not because you have gotten an explicit 
commitment from the Administration?
    Dr. Green. We believe that because we have a signed 
amendment, a Statement of Intent to proceed on these studies, 
that we will continue to do so.
    Ms. Edwards. Dr. Squyres, do you believe that there is an 
explicit commitment on behalf of the Administration for the 
NASA/ESA mission?
    Dr. Squyres. I have had the opportunity to engage in 
conversation with individuals at the Office of Management and 
Budget, and in those conversations, I have been told the 
Administration is at this current time not ready to make such a 
commitment.
    Ms. Edwards. Okay. And so Dr. Green, does NASA want to do 
the mission?
    Dr. Green. NASA does want to do this mission.
    Ms. Edwards. Does ESA want to do the mission?
    Dr. Green. ESA does want to do this mission, and in fact, 
we need each other more than ever before.
    Let me comment and take this time to talk a little bit 
about that relationship because it is extremely important to 
understand. In the past, our connections with a European 
partner or another agency have always been who leads the 
mission, and one mission at a time. The particular effort that 
we are engaging with ESA is for a series of missions, and 
instead of a small contribution, it is a major contribution on 
each other's part. So this is a long-term partnership that we 
are moving forward with and we have the agreement by Director 
General Dordain of ESA and Administrator Bolden to continue 
aggressively to pursue our programs. So indeed, NASA is fully 
behind the 2016 and 2018 mission.
    Ms. Edwards. So let me just be clear. The scientists at 
NASA want to do the mission?
    Dr. Green. Yes.
    Ms. Edwards. At ESA, they want to do the mission?
    Dr. Green. Yes.
    Ms. Edwards. Congress hasn't prohibited it.
    Dr. Green. Yes.
    Ms. Edwards. So who is blocking the two agencies from 
moving forward?
    Dr. Green. As I had mentioned earlier, OMB takes their job 
seriously of looking throughout the Federal Government for 
opportunities to overall lower the costs to this Nation, the 
taxpayers, and consequently, they are using a system of 
priorities to be able to look at these programs to decide which 
will move forward and which will be cancelled.
    Ms. Edwards. You know what, Dr. Green? I don't want to put 
you in the position of having to answer that question. What I 
want to know and it would be helpful to hear from OMB directly 
about why things are being held up and who is holding them up, 
given that the two agencies that would be principally 
responsible for moving this forward at the recommendation in 
the decadal survey as we have heard from Dr. Squyres why we are 
sitting in a holding pattern. And so I look forward to hearing 
from OMB about that.
    And Dr. Squyres, just as I finish here, I just want to be 
clear. Is there anybody in particular at OMB who told you about 
the Administration's willingness or unwillingness to commit to 
the partnership with ESA?
    Dr. Squyres. Yes, it was a meeting with Sally Ericsson.
    Ms. Edwards. Thank you.
    Chairman Palazzo. I now recognize the gentleman from Texas, 
Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Green and Dr. Squyres, in the last 20 years or so, the 
search for extraterrestrial intelligence has become, I think, a 
serious academic and scientific subject. How do you feel that 
the National Academies of Science think about the likelihood of 
microlife being found in our own solar system? Dr. Green, let 
us start with you and then go to Dr. Squyres.
    Dr. Green. One of the aspects of planetary science is in 
the area of astrobiology--what we have been doing is looking 
at, does life live in extreme places on this planet, and in 
many of these extreme places, we do find life.
    Mr. Smith. Actually, you are anticipating my next question, 
but let me go back to that first one again. National Academies 
of Science, do they think there is a strong likelihood of life 
being found in our solar system?
    Dr. Green. The National Academy through the planetary 
decadal has a major undercurrent of astrobiology science that 
is in it. It is indeed all about looking at regions in the 
solar system with the potential of habitability and the 
potential of life. So yes, indeed, it does.
    Mr. Smith. And now my next question that you anticipated, 
again to ask both of you, and actually, Dr. Squyres mentioned 
it a while ago, the possibility of life being found on Mars or 
Europa and right before this hearing today you were saying to 
me that if we just find a thimbleful of water, it is very 
likely that that is going to contain some form of life. So do 
you think or do you want to say today that it is almost certain 
that we will find microlife on Mars and Europa? Dr. Squyres.
    Dr. Squyres. Sir, I learned a long time ago, about eight 
years, when we first landed our rovers on Mars, not to predict.
    Mr. Smith. I know where you are going and therefore give me 
a percentage of likelihood.
    Dr. Squyres. You know, if I could do that, sir, I would be 
so----
    Mr. Smith. If you say 100 percent, you will make a lot of 
news today.
    Dr. Squyres. Yeah, I would be thrilled. What I would like 
to say is that it is no coincidence that the two highest 
priority planetary flagship missions recommended were to Mars 
and Europa. What sets those worlds apart is their potential for 
life, and it is the judgment of the National Academy of 
Sciences and National Research Council that the probability is 
high enough that there could be life on those worlds or could 
have been life on those worlds that it is worth investing the 
resources in those flagship missions.
    Dr. Green. Dr. Squyres, let me use a legal term. Is it more 
likely than not we will find life on Mars and Europa, or one or 
the other if you think it is more likely than one.
    Dr. Squyres. I simply don't know, and that is the nature of 
science, sir.
    Mr. Smith. Okay. Dr. Green?
    Dr. Green. I would agree with everything Steve said.
    Mr. Smith. You are not going to bite at ``more likely than 
not''?
    Dr. Green. If we don't have the opportunity to look, we 
will never know.
    Mr. Smith. Okay. Fair enough. Let me on my next question to 
both--actually, Dr. Green, I am going to pass on you. I don't 
want to put you on the spot either, but let me direct my next 
question to Dr. Squyres, and it is a follow-up to the 
Chairman's question a while ago about OMB. OMB is clearly 
saying that they feel there is not enough money for all the 
planetary missions, and clearly they are, I think, picking and 
choosing what they consider to be the Administration's 
priorities. My question, Dr. Squyres, is this. Do you think the 
Administration's priorities are the general consensus 
priorities of the scientific community?
    Dr. Squyres. The general----
    Mr. Smith. And if not, where do they differ?
    Dr. Squyres. The general consensus priorities of the 
science community are, I believe, those expressed in the 
decadal report. So to the extent that the Administration's 
position differs, than it differs from the scientific 
consensus.
    Mr. Smith. Okay. What would be examples of that?
    Dr. Squyres. Examples of that would be an unwillingness to 
commit to these high-priority flagship missions despite the 
fact that NASA has labored heroically and I believe 
successfully to bring their costs into the affordable range, 
indeed, into the range of budget projections that have been 
provided publicly by OMB. So it is a little bit perplexing when 
you see OMB's budget projections, which by the way are 
declining precipitously for planetary exploration, which is 
another issue for this Committee to consider. But even given 
that, the missions that NASA has now restructured in response 
to the decadal survey fit within the projected budget profiles 
and yet the agency has not been given the opportunity to move 
forward with those anyway.
    Mr. Smith. Okay. Thank you, Dr. Squyres. Thank you, Dr. 
Green.
    Thank you, Mr. Chairman.
    Chairman Palazzo. Ms. Fudge, I understand you don't have 
any questions at this time?
    Ms. Fudge. That is correct.
    Chairman Palazzo. So at this time the Chair recognizes Mr. 
Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Dr. Green, what was the original budget estimates that we 
approved of for the James Webb telescope?
    Dr. Green. Because that is not in my direct field nor am I 
involved in any of the budget determinations of James Webb, I 
will have to get back to you.
    Mr. Rohrabacher. Dr. Squyres, do you know that?
    Dr. Squyres. No, sir, I do not.
    Mr. Rohrabacher. Let me remind you, it was $1.6 billion, 
and I suppose you don't know how much today we are being asked 
to complete the program.
    Dr. Green. I believe the James Webb group has completed 
their initial, or their review of a re-plan and have provided 
to Congress that cost estimate.
    Mr. Rohrabacher. Right. That is $8.8 billion. I would 
suggest to you there is a relationship between that cost 
overrun and the other cost overrun that we have to deal with 
here in Congress, and the success of America's space programs. 
Would you agree with that?
    Dr. Green. Well, what I try to do within the Planetary 
Science Division is to articulate our goals and our priorities 
and let the Administration determine its overall priority.
    Mr. Rohrabacher. I would suggest that the people of NASA 
decide to get involved when certain elements of their operation 
and other people within the space program are doing things that 
are detrimental to the long-term interests of a well-funded and 
effective space program. If there is anything that is a greater 
danger, I would say that cost overrides of this nature are 
certainly a greater threat to a viable space program than the 
asteroid belt or anything else that you would face up there 
that God has presented an obstacle for us to moving forward 
into space. This is outrageous.
    So you have $1.6 billion for the James Webb telescope, now 
it is $8.8 billion. Would you think that perhaps the space 
launch system at $18 billion now as an estimate might go up 
with the same magnitude of an increase in cost? I won't be 
burdening you both because obviously you don't know that, it is 
not your area, but let me--Mr. Chairman, we need to put on 
notice NASA and the rest of these people, these kind of cost 
overruns are killing the program, and I certainly appreciate 
the great words that you said and I have been a supporter of 
the space exploration program. I think it is a gem, an 
incredible thing that we can brag about and be proud about as 
Americans. What we can't be proud about is this bureaucratic 
incompetence that is leading to such massive billion-dollar 
expenditures that are coming right out of the heart of these 
programs. We have got to get serious about this, and if we are 
not, it is not--by the way, I don't believe it is Congressional 
back and forth and indecision that is causing these things. I 
don't believe that. I believe that we have honestly set forth 
some money for programs and we come back all the time with cost 
overruns that kill our ability to do any other programs.
    Well, I hope that we can send our exploration missions to 
Mars and to Europa. I think you are right: that is a noble and 
an historic endeavor and should be led by the United States of 
America. We might end up having to do cooperation with our 
European friends or maybe even the Russians in order to 
accomplish these because of these damn cost overruns. Well, I 
would hope that people realize you have a right to criticize 
other people within the American space program when they are 
doing these things that are going to end up with such a 
horrible outcome for all of us.
    Let me get back to the space launch program, are any of 
these missions we are talking about, landing these things on 
Mars, the rovers and the various Mars programs and Europa. 
Except for a manned mission, is there some reason we need the 
megarocket of all times, the space, they call it gigantic or 
what--the space Titanic that we are building which will have 
its own cost overruns as the iceberg in the way. Do we need 
that extra-huge rocket to accomplish any of the missions you 
are talking about today?
    Dr. Green. Currently, the design of our 2016 and 2018 
missions in cooperation with ESA will use the EELVs, the 
expendable launch vehicles, that we currently have under 
contract through the NLS-2 contract.
    Mr. Rohrabacher. So if we end up with a cost overrun which 
is now $18 billion at the same level as the cost overrun as the 
James Webb telescope, it will suck up all the money from all 
these various programs and we don't even need that rocket in 
order to accomplish the missions that you are telling us are so 
important today. I agree with you. Thank you very much.
    Chairman Palazzo. I now recognize the gentleman from 
Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Radioisotope power systems utilize heat converted from the 
nuclear decay of radioactive isotopes to generate electricity. 
RPSs, as they are commonly known, are frequently used to power 
spacecraft that travel large distances and in extreme 
environments, yet the United States ended production of 
plutonium-238, the key nuclear component of RPSs, back in 1988. 
Despite no new production, its use continues. Most recently, 
the Mars Science Laboratory used about 3.5 kilograms for the 
multi-mission radioisotope thermoelectric generator and the 
next Discovery mission has reserved 1.8 kilograms for two 
advanced sterling radioisotope generators. The decadal survey 
indicates that in order to complete the recommended program, 
new plutonium-238 production is essential or more deliveries 
from Russia will be necessary. It concluded, and I quote, ``The 
committee is alarmed at the status of plutonium-238 
availability for planetary exploration. Without a restart of 
plutonium-238 production, it will be impossible for the United 
States or any other country to conduct certain important types 
of planetary missions after this decade.''
    Dr. Green, what programs are in jeopardy if production does 
not get underway for plutonium-238?
    Dr. Green. Mr. Brooks, as you know, Congress actually has 
been quite generous in allowing us to have the funding 
necessary to work with the Department of Energy to move forward 
in developing the plans necessary to restart the production of 
plutonium-238 that as you point out so well is vital to many of 
our missions in the future. We feel confident that as we move 
forward in this budgetary process and as our relationships with 
Department of Energy are quite excellent that we will begin to 
do that development of the capability that then will generate 
the fuel necessary for the future. So I believe we are on the 
path to do that, and once again I want to thank Congress for 
recognizing that and enabling us to facilitate that.
    Mr. Brooks. Well, the House Appropriations Subcommittee for 
Energy and Water denied funding for DOE for plutonium-238, but 
back to my question. What programs are in jeopardy if 
production does not get underway?
    Dr. Green. We do have a limited supply of plutonium-238 in 
the Department of Energy and so consequently that will be used 
for potential missions such as, as you mentioned, our Discovery 
mission. We are using plutonium-238 for the Mars Science 
Laboratory right now. There is a lot of discussion based on 
what the 2018 mission will look like and where it needs to go, 
whether plutonium-238 will be needed for that.
    Our Discovery program and our New Horizons, or New 
Frontiers program and many of its missions all require 
plutonium-238 to be able to be accomplished. So indeed, many of 
the missions throughout the planetary decadal--and this is one 
of the reasons why they are recommending the ability to produce 
this vital material will be in jeopardy if we are not able to 
do that by the end of this decade.
    Mr. Brooks. Thank you, Dr. Green. Now, further, how long 
does it take from the instance we decide to restart production 
before we have available plutonium-238? Do you have a judgment 
on that?
    Dr. Green. We delivered a cost-sharing plan that also 
outlines some of the basic capabilities to Congress more than a 
year ago, and following that plan, let me just mention a couple 
aspects of it. Currently, our need for plutonium is such that 
existing capabilities within the Department of Energy can be 
utilized. This means that no new facilities have to be 
developed but only a time-sharing of the current use of those 
facilities. So depending upon the environmental assessment 
impacts and other studies that need to be done to then 
delineate how we would move forward, production could begin 
within the next couple years.
    Mr. Brooks. In your judgment, when is the absolute deadline 
for production to begin before it starts adversely affecting 
some of our NASA missions?
    Dr. Green. If we stay on the time scale as I mentioned, we 
should be okay.
    Mr. Brooks. Well, do you have a judgment as to what that 
time frame is? How long?
    Dr. Green. We would like to see the production of 
plutonium-238 begin within the next several years, and once 
that material is produced, there is quite a process--set of 
processes that have to kick in to be able to make that 
available for future missions and so there is a long lead time 
that we have to be cognizant of.
    Mr. Brooks. And finally, do you have a judgment as to the 
cost to restart plutonium-238 production?
    Dr. Green. As delineated in that report, utilizing the 
existing facilities in the Department of Energy, that cost 
estimate is anywhere between $70 and perhaps $90 million.
    Mr. Brooks. Thank you, Dr. Green.
    Chairman Palazzo. Mr. Clarke, welcome to the hearing. I 
understand you don't have any questions at this time? Okay.
    I now recognize the gentlewoman from Florida, Ms. Adams.
    Mrs. Adams. Thank you, Mr. Chair.
    Dr. Green, there have been several reports in the media 
recently that NASA is considering abandoning the flagship Mars 
sample and caching mission due to specific direction from OMB. 
Do you believe Mars missions to study atmospheric as well as 
geophysical conditions are a crucial step for planning a human 
exploration to Mars, something for which SLS could be used?
    Dr. Green. Indeed, I believe that as the National Academy 
has stated in other reports, sample return is absolutely vital 
before we provide missions and plan missions for humans to 
explore Mars.
    Mrs. Adams. Do you believe, could the United States send 
humans to Mars safely without this type of scientific inquiry 
beforehand?
    Dr. Green. Based on the decadal survey and what we know 
about Mars, I do believe it is essential that we bring back 
samples.
    Mrs. Adams. So what role does the cost of launching these 
missions play into your budget profile? For example, would it 
be possible for NASA to build a satellite or a rover that you 
did not have the money to launch it on time?
    Dr. Green. I am sorry. Could you please restate that?
    Mrs. Adams. What role does the cost of launching these 
missions play into your budget profile? For example, would it 
be possible for NASA to build a satellite or a rover that you 
did not have the money to launch on time?
    Dr. Green. Indeed, before we can move forward with any 
mission, we have to be able to plan adequately for all aspects 
of the mission, so that is our best guess in terms of what it 
would cost to develop such a mission along with its science and 
instruments, but in addition to that, we also have to budget 
for a launch vehicle, and how we do that is, we use the current 
contract that NASA has. It is called the NLS-2 contract. Based 
on the mass of the spacecraft and other engineering aspects of 
that----
    Mrs. Adams. Just yes or no at this point, because I have 
some other questions.
    Dr. Green. Yes, we have to be able to budget for the launch 
vehicle within our budget.
    Mrs. Adams. Thank you.
    Dr. Squyres, let us assume the Administration does not 
allow the Mars partnership with ESA to move forward and the ESA 
does the mission with Roscosmos? What would be the effect on 
American planetary science if European and Russian scientists 
having access to Martian soil and rock samples that Americans 
do not?
    Dr. Squyres. I think there are two detrimental effects. 
One, of course, is that science in this Nation would suffer 
because we would no longer have the ability to do the cutting-
edge science because the cutting-edge science requires access 
to materials that we would not have. The other is that having 
lost the capability to fly such missions, we would be poorly 
positioned to develop other important science missions beyond 
that, so I think we would lose two ways.
    Mrs. Adams. You state in your written testimony that you 
believe the publicly available budget guidelines given to NASA 
by OMB are sufficient to allow Mars sample collection if we 
partner with ESA. If the budget profile is sufficient, the 
skill sets are available and the partner is willing, what is 
stopping the mission from moving forward?
    Dr. Squyres. In my view, it has been the unwillingness to 
date of the Administration to commit to that partnership.
    Mrs. Adams. And there is a widely held perception that NASA 
is no longer in charge of developing its missions and it is 
instead being directed by OMB on which missions to pursue. What 
is the danger to U.S. scientific leadership and to the 
scientific community as a whole if this indeed is the case? 
Does this undermine the legitimate work of the decadal survey 
process?
    Dr. Squyres. The decadal survey was our best attempt as a 
community of planetary scientists to state priorities for space 
exploration. It was carried out at the request of NASA. We gave 
them our best considered advice as a community of literally 
thousands of planetary scientists and it is important to us to 
either see that advice followed or to understand why it has not 
been.
    Mrs. Adams. What is the danger to U.S. scientific 
leadership and the scientific community as a whole?
    Dr. Squyres. The danger to our leadership is that we could 
lose it, flat out. We have a capability as a Nation to do deep 
space exploration that no other entity on this planet 
possesses. We are better at this than anybody. And I would like 
to see this Nation maintain that capability not just for the 
science of these missions but for the utility that that 
capability has to conduct other missions in the future that we 
can't even conceive of at this time.
    Mrs. Adams. And just to be clear, Dr. Green, you said that 
OMB is the President's priority basically, correct?
    Dr. Green. Well, the President----
    Mrs. Adams. Yes or no.
    Dr. Green. Yes.
    Mrs. Adams. Thank you.
    I yield back.
    Chairman Palazzo. At this time we will go into a second 
round of questions for any Members that would like to ask 
additional questions, and I will go ahead and recognize myself 
first.
    Dr. Squyres, or Dr. Squyres, in your dealings with our 
international partners, most notably, the European Space 
Agency, do you sense frustration with the United States or a 
growing unwillingness to partner with us in the future?
    Dr. Squyres. I hope, sir, that there is not a growing 
unwillingness, and no, I have not sensed a growing 
unwillingness. In fact, I have sensed exactly the opposite, 
that there is an enthusiasm to future partnerships. It has not 
been my perception in talking to my European colleagues that 
they have concluded yet that we are an unreliable partner. I 
sense enthusiasm. I do sort of sense frustration.
    Chairman Palazzo. What is the scientific rationale for a 
Mars sample return mission, and why is this deemed as the most 
important flagship mission for the coming decade?
    Dr. Squyres. I was hoping somebody would ask that. Mars 
sample return is, in the view of our community, and the next 
logical step in Mars exploration. If you look at what we have 
accomplished at Mars in the last 15 to 20 years, we are now to 
the point where the most significant step forward can come from 
bringing samples back. The reason for that is that, it is 
twofold. First of all, we have learned enough about Mars to 
know the kinds of places we must go to get the most important 
samples so we are ready. The other thing, and this is coming 
from somebody who has devoted his career to building 
instruments and sending them to Mars is that the best science 
is always going to get done in laboratories on Earth. The kind 
of instrumentation that exists in laboratories on Earth far 
surpasses in its capability what you could ever hope to send to 
the Martian surface on a robotic vehicle.
    Moreover, it is important to recognize that return samples 
are in a sense a gift that keeps on giving. The very best 
science ever done with samples collected from the moon during 
the Apollo program 40-plus years ago is being done today by 
scientists who had not been born at the time those samples were 
collected using instruments that had not been conceived of. So 
if you can bring samples back, they not only enable you to do 
cutting-edge science today but they enable you to do it for 
potentially decades into the future.
    Chairman Palazzo. I now recognize our Ranking Member, Ms. 
Fudge from Ohio.
    Ms. Fudge. Thank you, Mr. Chairman.
    Both of these questions will be to both or either, but 
preferably both. Thank you for coming. With the prospects of 
flat or reduced budgets for planetary sciences, NASA will be 
challenged to initiate expensive flagship missions while also 
maintaining a balanced program that includes small- and medium-
sized missions. To both of our panelists, our witnesses, what 
are the options for pursuing top-priority flagship planetary 
missions and how should Congress weigh in on those options?
    Dr. Green. For us to be able in the planetary budget, which 
is declining, that the President submitted to Congress in 
February, indeed, that is very challenging, and for us to be 
able to pull off the decadal recommendations of a balanced 
portfolio with small, medium and large flagship missions, we 
have to be able to partner, and with ESA we have found an 
outstanding partner. They have been fabulous throughout our 
entire connections over the years and we have done a number of 
major things together, and this partnership is very strong.
    Ms. Fudge. Thank you.
    Dr. Squyres. The only thing that I would add to Dr. Green's 
statement is that I would like personally to commend the agency 
on the work that they have done along these lines already. When 
we wrote the decadal report, we identified the need to 
dramatically reduce the scope, cost and complexity of both the 
Mars and Europa missions, and NASA has already taken 
substantial strides forward in doing both of those.
    Ms. Fudge. Thank you.
    To what extent is NASA's Robotic Planetary Science program 
an enabler for human exploration missions beyond low Earth 
orbit?
    Dr. Green. You know, while humans are developing the 
capability to leave low Earth orbit, this is really the decade 
for planetary scientists. In other words, the President's 
agenda for which he has a flexible path, a number of 
destinations, we are there discovering a variety of aspects of 
that phenomenon looking at the hazards, understanding what 
those environments are all about. That is absolutely essential. 
You know, human exploration is not Star Trek. It is not go 
where no man has gone before. It really involves detailed 
studies of a variety of objects that human exploration is 
planning to go to such as back to the moon, asteroids, and of 
course, Mars. So this is a perfect time for us to be able to 
really get down to business and do a tremendous amount of 
science in support of human exploration also.
    Dr. Squyres. Yeah, I will just add that one of the things 
that we stressed in the decadal report was the way in which 
these missions to targets that are potential targets for human 
exploration can lay the groundwork for that, and this is 
something NASA has done since almost the beginning of the 
agency. I teach a course at Cornell about the history of 
exploration, and I was just talking to my class the other day 
about the way that the Apollo landings on the moon were 
preceded by the Ranger missions and the Surveyor missions and 
the lunar orbiter missions and all of those missions laid the 
groundwork that was partially enabling for the success of 
Apollo. I think the same can happen at asteroids. I think the 
same can happen at Mars.
    Ms. Fudge. Thank you, gentlemen.
    Mr. Chairman, I yield back.
    Chairman Palazzo. Seeing no other Members with additional 
questions, we will bring this hearing to a close. I thank the 
witnesses for their valuable testimony and the Members for 
their questions. The Members of the Subcommittee may have 
additional questions for the witnesses, and we will ask you to 
respond to those in writing. The record will remain open for 
two weeks for additional comments from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:13 a.m., the subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Jim Green,
Planetary Science Division Director,
Science Mission Directorate,
National Aeronautics and Space Administration

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Steve Squyres, Chair, 
Committee on the Planetary Science 
Decadal Survey, National Academies of Science 

Questions submitted by Subcommittee Chairman Steven Palazzo

Q1.  Your testimony cites the importance of a balanced program, and 
included in such a program is the Research & Analysis (R&A) component. 
It is this program where discoveries are generated, where analysis is 
conducted, and where opportunities to train our future scientists 
begin. Is the R&A account being unjustly raided to pay for the more 
visible programs, such as the flagships? How do you recommend 
preserving the vital balance among different sized programs given 
current budgetary constraints?

A1. It has not been my impression that the R&A program has been 
unjustly raided to pay for other programs. On the contrary, NASA 
management has done a good job to date of protecting the R&A program, 
as recommended in the decadal survey report. The decadal report 
recommends specific levels of R&A funding for the decade 2013-2022, and 
states that high priority should be placed on preserving this funding. 
Some flexibility in R&A funding in the face of declining budgets, 
however, is consistent with the decadal recommendations.

Q2.  In your view, can NASA meet its mission objectives for Mars 2018 
and the future Mars Sample Return missions without flying Mars 2016?

A2. I know of no technical reasons related to Mars 2018 and beyond that 
require the Mars 2016 mission to be flown. There could, however, be a 
programmatic reason. Strong participation by the European Space Agency 
(ESA) in the Mars missions in 2018 and beyond is necessary in order for 
them to be affordable to NASA. If NASA were to pull out of the 2016 
mission, this action could threaten the partnership with ESA for 2018 
and beyond.

Questions submitted by Ranking Member Jerry Costello

Q1.  What puts the Mars program in the must-have category as opposed to 
the nice-to-have category? How can I convince my colleagues in Congress 
and my constituents that Mars is of national importance in these 
fiscally constrained times?

A1. Mars is unique among the planets in being enough like Earth that we 
can imagine life once having taken hold there. This means that Mars is 
a place that we can go to seek answers to truly basic questions like 
whether we are alone in the Universe, and how life began. Such 
questions are among the most important faced by science, and are of 
interest to every thinking person. It is these characteristics that 
make Mars special.

Q2.  How important is it for the United States to maintain its 
leadership in Mars exploration following the launch of the Mars Science 
Laboratory? What is needed now in order to sustain our Nation's 
leadership in Mars robotic exploration?

A2. I believe it is crucial for the United States to maintain this 
leadership, both because of the importance of Mars science that I cited 
above, and the difficulty of re-establishing this leadership if it is 
lost. In order to sustain our leadership position, a new high-priority 
mission of Mars exploration is needed--like the Mars Sample Return 
campaign recommended by the planetary decadal survey.

Q3.  Congress, through the House and Senate appropriations bills for FY 
12, and through successive Authorization Acts, has supported a robust 
planetary science program, including robotic Mars exploration. What 
criteria should Congress use to evaluate any proposals that would 
disrupt the systematic robotic exploration of Mars that has been built-
up over the past decade?

A3. I believe that the appropriate criterion to use is consistency with 
the recommendations of the National Research Council's planetary 
decadal survey. This survey involved inputs from more than a thousand 
professional planetary scientists, and represents the consensus 
recommendations of that community to the United States government 
regarding NASA's planetary program.

Q4.  If the U.S. reneges on the joint Mars initiative with ESA, what 
would be the impact of a hiatus in our ability to sustain knowledge of 
the Red Planet?

  a.  Would we be ceding hard-earned leadership to other countries?

A4 (a). It's likely. We certainly would be giving up hard-earned 
leadership, and there are many other national and international space 
agencies that have both the capability and the intention to take on a 
leading role in Mars exploration.

  b.  Would other countries view us as an unreliable partner in future 
space endeavors?

A4 (b). In my opinion, that would be a very serious risk.

Q5.  NASA has many technical capabilities. Why is the ability to land 
and rove on Mars, which you refer to as being a national ``crown 
jewel'', so hard to master and what would be the implication if the 
United States stood down its robotic exploration of Mars for a period 
of time?

A5. Landing and roving on Mars is so difficult because it is impossible 
to predict the exact environmental conditions in the martian atmosphere 
and at the martian surface. Any such spacecraft, therefore, must be 
capable of surviving a wide range of possible conditions. Landing and 
roving on Mars is, in my opinion, the most difficult thing we do in 
planetary exploration. If we stand down our robotic exploration of Mars 
for a long time it will be very difficult to re-start it, due to the 
loss of critical workforce.

Q6.  How important are the strategic capabilities, scientific 
knowledge, and technical experience that the U.S. has gained through 
Mars and planetary science missions to NASA's future plans for solar 
system exploration and human exploration beyond low-Earth orbit?

A6. They are crucial. The most important long-term target for human 
space exploration is Mars. Today's robotic Mars program is laying the 
essential groundwork for the future program of human Mars exploration.

Q7.  With the prospects of flat or reduced budgets for planetary 
sciences, NASA will be challenged to initiate expensive flagship 
missions while also maintaining a balanced program that includes small 
and medium-sized missions. What are the options for pursuing top-
priority flagship missions and how should Congress weigh those options?

A7. Three approaches are crucial to making flagship missions 
affordable. First, flagship mission development should be characterized 
by adequate up-front investment in technology development, and very 
conservative cost estimation practices. These work together to reduce 
the risk of future overruns. Second, the scope of flagship missions 
must be limited and in some cases reduced. The planetary decadal survey 
report recommended substantial descoping of the two highest priority 
planetary flagship missions, including the 2018 Mars sample caching 
rover mission. Third, NASA should vigorously pursue strategic 
partnerships with capable international partners like ESA to reduce the 
total cost to the U.S. of high priority flagships.

Questions submitted by Subcomittee Ranking Member Donna Edwards

Q1.  In your prepared statement, you note that ``the publicly-available 
budget guidelines that have been provided to NASA by the Office of 
Management and Budget are sufficient to allow the Agency to carry out 
the Mars sample return collection and caching mission.'' Could you 
please explain the budget guidelines to which you are referring and why 
you believe the Agency could carry out the Mars missions under those 
guidelines?

A1. I am referring to the sharply-decreasing five-year projection for 
the NASA planetary science budget provided in the FY 2012 budget 
request. Specifically, those numbers were $1,488.9M in FY'12, $1,365.7M 
in FY'13, $1,326.4M in FY'14, $1,271.0M in FY'15, and $1,188.9M in 
FY'16. I believe the Agency could carry out the Mars program even under 
those very harsh guidelines because of the substantial progress they 
have made in reducing the scope of the program--most notably 
reconfiguring the 2018 mission to include just one rover.

Q2.  The planetary science decadal survey committee, which you chaired, 
recommended Mars Sample Return as its top priority in the large mission 
category over the next decade.

  a.  What guidance did the committee provide on how this priority 
should be treated within a severely constrained fiscal environment?

A2 (a). The decadal guidance on this point had three main components. 
First, it recommended that Mars Sample Return only be carried if the 
cost to NASA of the 2018 mission could be reduced to no more than $2.5 
billion. (Current projections are substantially less than that.) 
Second, it recommended that it only be carried out if a partnership 
with ESA could be arranged for the entire Mars Sample Return campaign. 
Third, it recommended that if severe cuts to NASA's planetary program 
become necessary, they should be implemented by descoping or delaying 
(but not eliminating) flagship missions.

  b.  How does uncertainty in the Mars program planning for 2016 and 
2018 launch opportunities affect capabilities needed to implement Mars 
Sample Return?

A2 (b). It affects it in several ways. One is that the 2018 mission is 
intended to kick off the Mars Sample Return campaign with a sample 
collection and caching rover. If that mission becomes uncertain, the 
whole campaign becomes uncertain. Another is that uncertainty in 2016 
and 2018 could weaken or ruin the partnership with ESA, which is 
necessary to make Mars Sample Return affordable to NASA. Finally, as I 
discuss below, uncertainty in 2016 and 2018 could lead to loss of 
critical workforce capabilities within NASA, particularly at the Jet 
Propulsion Laboratory.

Q3.  Some argue that funding to enable NASA to implement the planetary 
science decadal survey priorities should be taken from the nation's 
human spaceflight program. In your view, is that a good idea or not?

A3. In my view, that is a very bad idea. Human spaceflight has always 
been central to the goals of NASA, and my personal opinion is that it 
should remain central to those goals.

Q4.  With respect to offsets for the increases required to fund the 
James Webb Space Telescope, has the science community within NASA or 
external to NASA been asked for input on how those offsets are to be 
made, especially with respect to planetary science?

A4. I am not aware of any requests to the science community for input 
on how such offsets should be made.

  b.  Has NASA or the Office of Management and Budget shared any 
proposals on how those offsets might be made, and if so, what is your 
reaction?

A4 (b). I am not aware of any publicly available proposals for how such 
offsets might be made. I presume that OMB's intentions on this point 
will be made clear in the FY'13 budget submission.

Q5.  If the NASA-European Space Agency (ESA) collaboration on Mars is 
not allowed to go forward, what will be the impact on the NASA Jet 
Propulsion Laboratory (JPL) in California, the nation's premier 
resource for planetary exploration?

A5. I fear it will be substantial. Specifically, I am deeply concerned 
about the potential loss of some of the most talented members of JPL's 
workforce.

  b.  How hard will it be for JPL and the nation to preserve the skills 
and capabilities needed to land on Mars at some point in the future if 
the planned NASA-ESA collaboration is not approved?

A5 (b). It will be extremely difficult. The people at JPL who know how 
to land on Mars are some of NASA's best. And they don't just know how 
to land on Mars--they are aerospace engineers with broad talents and 
deep knowledge. They are people who are drawn to a challenge and who 
have skills that are much in demand. If there is no new planetary 
exploration challenge for them to meet within NASA, I fear that they 
will go elsewhere.

  c.  What is the mood at JPL--is the workforce nervous about the 
future after Mars Science Lab is launched?

A5 (c). In my recent conversations with scientists and engineers at 
JPL, the mood is very nervous. The Laboratory is justifiably proud of 
recent successes at Mars, and people are excited about the prospects 
for new discoveries with MSL. But JPL's bread and butter is development 
of new deep space missions, and unless there will be a flagship 
planetary mission after MSL, JPL's workforce faces major uncertainties.

Q6.  What has been the impact of America's systematic approach to Mars 
exploration on inspiring the next generation to pursue science and 
engineering careers?

A6. I believe it has been substantial. I have received dozens, perhaps 
hundreds, of emails and letters from students and parents telling me 
how the career goals of young people have been shaped by the excitement 
generated by NASA's Mars program. I honestly believe that this 
inspiration may ultimately be one of the most important legacies of the 
Mars program, in the same way that inspiring today's space scientists 
and engineers--myself included--was a major legacy of Apollo.

Q7.  Is there any way to measure how a reduction in the pace of Mars 
exploration or a stand down in Mars missions would affect student 
interest in science and engineering?

A7. That strikes me as a difficult quantity to measure, but I am not an 
expert in educational metrics. Perhaps that would be a good question to 
pose to NASA's Education Program.

            Appendix II: Additional Material for the Record

      Submitted Statement for the Record by The Planetary Society

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Submitted Statement for the Record by Dr. Mark Sykes, CEO and Director 
                   of the Planetary Science Institute

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
